<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-696]
[From the U.S. Government Printing Office]



                                                 S. Hrg. 107-696, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, TO PRESCRIBE MILITARY 
    PERSONNEL STRENGTHS FOR FISCAL YEAR 2003, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                             MARCH 14, 2002


         Printed for the use of the Committee on Armed Services



                                                 S. Hrg. 107-696, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, TO PRESCRIBE MILITARY 
    PERSONNEL STRENGTHS FOR FISCAL YEAR 2003, AND FOR OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                             MARCH 14, 2002


         Printed for the use of the Committee on Armed Services



                   U.S. GOVERNMENT PRINTING OFFICE
81-925 PDF                  WASHINGTON : 2002
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, 
Washington, DC 20402-0001








                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia,
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

MAX CLELAND, Georgia                 RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky

                                  (ii)












                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                 Army Modernization and Transformation
                             march 14, 2002

                                                                   Page

Brownlee, Hon. Les, Under Secretary, United States Army..........     7
Keane, Gen. John M., USA, Vice Chief of Staff, United States Army    10

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        THURSDAY, MARCH 14, 2002

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                 ARMY MODERNIZATION AND TRANSFORMATION

    The subcommittee met, pursuant to notice, at 2:36 p.m., in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Warner, 
Inhofe, and Santorum.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; and Creighton Greene, professional 
staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Ambrose R. Hock, professional staff 
member; George W. Lauffer, professional staff member; Patricia 
L. Lewis, professional staff member; Thomas L. MacKenzie, 
professional staff member; and Scott W. Stucky, minority 
counsel.
    Staff assistants present: Leah C. Brewer and Nicholas W. 
West.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; William K. Sutey, assistant to 
Senator Bill Nelson; John A. Bonsell, assistant to Senator 
Inhofe; George M. Bernier, III, assistant to Senator Santorum; 
Robert Alan McCurry, assistant to Senator Roberts; Michele A. 
Traficante, assistant to Senator Hutchinson; Arch Galloway, II, 
assistant to Senator Sessions; Derek Maurer, assistant to 
Senator Bunning.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. The subcommittee will come to order. 
Thanks to our witnesses for being here.
    Secretary Brownlee, first off, it is a great pleasure just 
to address you with that title and to have the long view of you 
as opposed to having you back here. [Laughter.]
    It is great to have you back in this hearing room in your 
new capacity as Under Secretary of the Army and, if I may put 
it this way, to continue discussions that you and I had when 
you were on the committee staff about Army modernization and 
transformation.
    General Keane, it is always good to see you as well. Your 
testimony last year was very helpful in this regard. I will 
look forward to a similarly rewarding and productive discussion 
today.
    Since this is the first Airland Subcommittee hearing of the 
second session of Congress, I want to acknowledge how much of a 
pleasure it continues to be to work with Senator Santorum as my 
ranking member. This is the fourth session, actually, we have 
worked together as chair and ranking member of this 
subcommittee; each of us having a stint in both positions. It 
has been a real pleasure to share these responsibilities with 
someone who shares the same concerns I have for the Army and 
the same determination to help the transformation that is 
ongoing to be a successful one.
    This subcommittee, I am proud to say, has been a strong 
supporter of the Army's effort to transform since the first 
budget request submitted after General Shinseki announced his 
transformation initiative in October 1999, which was the fiscal 
year 2001 budget request. That year the Department presented an 
Army budget that had decreased in real terms by 1.5 percent.
    At that time, General Shinseki submitted an unfunded 
requirements list of $10 billion, which was double that of 
General Reimer from the year before. The Army had cancelled 
seven major acquisition systems and restructured many others to 
shift $1 billion to begin research and development (R&D) on the 
Objective Force and to begin the procurement of the Interim 
Brigade Combat Teams (IBCT).
    The Airland Subcommittee responded to this problem by 
adding over $1 billion--$1.1 billion, to be exact--to the 
modernization budget, including an additional $46 million for 
Future Combat Systems (FCS) R&D; and the additional funding 
requested to restore the Chief of Staff's top two modernization 
priorities, which were the Wolverine Heavy Assault Bridge and 
the Grizzly Obstacle Breacher.
    In fiscal year 2002, the first Bush administration budget 
request, the Army budget increased slightly, but procurement 
funding continued to decrease by $630 million in real terms, 
while R&D increased only slightly by $200 million.
    At that time, General Shinseki submitted an unfunded 
requirements list of $9.5 billion; $2.7 billion of which was 
under the purview of this subcommittee. That year, we once 
again responded, adding over $500 million, covering the entire 
Objective Force shortfall of $43 million, funding $20 million 
of the $100 million IBCT shortfall, adding $53 million in 
digitization requirements; and putting $238 million toward 
aviation modernization and recapitalization.
    While supporting Army transformation, this subcommittee did 
express some concerns and take issue with certain aspects of 
the Army's strategy to get there. In particular, we had, and I 
think it is fair to say still do have, some concerns that the 
Army proposes spending nearly $10 billion of scarce resources 
to field six IBCTs.
    Many questions we asked, honestly, have not yet been 
answered fully. Consequently, in the fiscal year 2001 defense 
authorization bill, Congress mandated that the Army conduct a 
side-by-side operational comparison of the planned interim 
armored vehicle with the medium armored vehicle currently in 
the inventory to determine whether a cheaper alternative for 
the IBCTs was feasible and desirable.
    Last year, at the request of the Secretary of the Army, 
this subcommittee inserted language in the defense 
authorization conference report to grant the Secretary of 
Defense authority to waive the IAV-M113 side-by-side comparison 
requirement subject to certain clarifications.
    The legislation also mandates a formal experimentation 
program leading to the Objective Force, including a linkage of 
the IBCTs to that process. The legislation requires a full 
spectrum operational evaluation of the first IBCT and prohibits 
both its deployment outside of the U.S., and an obligation of 
funds for more than three IBCTs, until the IBCT is deemed 
operationally effective and suitable. That is one of the issues 
I hope we can discuss today.
    Now, I wanted to briefly go through that history today, 
because we have been very much involved with you and have 
wanted to be supportive. This year the Army's overall budget 
increased by $9.9 billion, a 10 percent real increase, while 
the procurement budget increased by 13.7 percent. So this is 
movement in a good direction.
    In contrast, the R&D budget, while less than last year's 
appropriated level, increased by less than 1 percent when 
compared to last year's budget request level.
    Even with that increase, and this is the dilemma that you 
are facing and in that sense, we are facing together, the Army 
still found it necessary to cancel another 18 acquisition 
programs, including some such as that Wolverine Heavy Assault 
Bridge, which the subcommittee had restored just 2 years before 
at the strong urging of the Army. The Army also reduced the 
number of Legacy Force systems it intends to recapitalize, and 
curtailed other programs.
    Once again, although receiving that additional $9.9 billion 
over last year's level, General Shinseki has submitted an 
unfunded requirements list of $9.5 billion. So this gives us 
some sense of the pressures on the Army, as it tries to do all 
that we are asking it to do and it feels it has to do.
    To say that challenges to a successful transformation still 
abound would, I think, be an understatement. I understand that 
the Army leadership considers the Objective Force to be the 
highest priority, and I agree with that.
    I note that the Army intends to accelerate the development 
and fielding of the Objective Force by 2 years for an initial 
operational capability in fiscal year 2010. I strongly support 
that initiative.
    But I remain concerned that the level of research and 
development funding may not allow that to happen. Even though 
the Army is focusing 97 percent of the science and technology 
(S&T) funding toward the Objective Force, the unfunded 
requirements list that the Army has submitted contains a $190 
million S&T shortfall, and a $200 million research, 
development, test, and evaluation (RDT&E) shortfall for the 
Future Combat Systems in the Objective Force.
    Now, that is something we cannot allow to happen. So the 
bottom line is, we have to work together so that the Army can 
find the resources to fully fund the Objective Force. It 
appears to me that the Army has to make some very hard 
decisions to free up the resources to make that transformation 
happen, and you need our help to do that. Of course, if we are 
to help, we need to understand that the Army has made specific 
decisions and will stick to them.
    Aviation programs that are critical, really, to the future, 
remain a concern. The future Air Combat System, particularly 
the Comanche, is still in development after nearly 20 years of 
effort. Two prototypes are built, and only one is flying.
    Now, we understand that the Army must contend with a nearly 
$1.7 billion developmental cost overrun. Similarly, the 
recapitalization and upgrade of the Chinook into the Improved 
Cargo Helicopter, which is another element vital to the 
Objective Force, is facing a so-called Nunn-McCurdy breach for 
unit production cost increases of over 25 percent. The Army has 
not yet begun a program to develop the Joint Transport Rotor 
Craft, which could be the Objective Force replacement for the 
Chinook.
    Apart from the Objective Force funding concerns are the 
questions of: What is the appropriate organizational design 
doctrine, tactics, techniques and procedure? Where should we 
look for the resources to fully fund the transformation to the 
Objective Force, including the aviation systems vital to its 
success?
    That brings me back to that $10 billion for the Interim 
Force, which is over $1.6 billion for each brigade. That does 
not include many of the other costs associated with that force. 
The $276 million shortfall for the Interim Brigade MILCON, and 
the $283 million shortfall for the Interim Brigade training on 
this year's Army unfunded list gives you some sense of the 
magnitude of the problem here.
    So I raise the question, respectfully: Can the Army truly 
afford six brigades, especially when the sixth one is fielded 
in the same year that the Army plans to begin equipping the 
first unit of the Objective Force? Would a smaller number 
adequately fill the perceived capability gap, and would the 
risk be worth taking to ensure full funding for the 
transformation to the Objective Force?
    Of course, we have to come back and ask: What about the 
Legacy Force? The Army plans to recapitalize and selectively 
modernize the three divisions and the armored cavalry regiment 
of the heavy counter-attack corps.
    Unfortunately, while many of the major combat systems such 
as the Abrams tank and the Bradley fighting vehicle are 
targeted for upgrade, many of the supporting systems are not. 
Also, none of the modernized tanks and infantry fighting 
vehicles are scheduled to go in a pre-positioned equipment set, 
which could result in less modernized forces, which fall on to 
that equipment, being first to the fight versus the modernized 
counter-attack corps, which will deploy by sea.
    As with the Interim Brigades, can the Army afford to 
modernize three and one-third heavy divisions and still get to 
the Objective Force? Would a smaller number suffice and allow 
the Army to modernize and recapitalize the support systems as 
well as the combat systems in a fewer number of heavy divisions 
and brigades?
    These are not easy questions. I know that there is some 
risk implied in their implementation, but I do think to help 
you move to the Objective Force, which you want to do as 
quickly as possible, and I think we need to do, we have to ask 
those questions.
    With apologies for the length of my opening statement to my 
colleagues and you, I look forward to your testimony and your 
counsel on these questions.
    Senator Santorum.
    Senator Santorum. Mr. Chairman, I will yield a minute or 
two to the ranking member of the full committee to comment 
about one of our witnesses.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Mr. Chairman.
    I believe this is your first appearance as a witness for 
the Department of Defense, Secretary Brownlee.
    Secretary Brownlee. Yes, sir.
    Senator Warner. We welcome you.
    Secretary Brownlee. Thank you.
    Senator Warner. We salute you for the recognition the 
President has given you and the trust that you now have. We 
have full confidence in your ability to discharge these 
obligations.
    I also note, I believe, you are either the first or very 
close to the first of the civilians to visit the region in 
Afghanistan.
    Secretary Brownlee. Yes, sir.
    Senator Warner. You visited the Army, which you, frankly, 
love so much, and the troops. Well done.
    Secretary Brownlee. Thank you, sir.
    Senator Warner. I am going to urge this subcommittee to 
look very carefully at the Family of Medium Tactical Vehicles 
(FMTV) program. I think that fact has been communicated to you.
    I do not raise FMTV in any way as to prejudice the varied 
parties that have interests in this program. But I do believe 
it is a matter of concern. Unusual pieces of information have 
come to this committee and to us individually about that 
program and, therefore, it bears scrutiny by this subcommittee. 
On that subject, I will have more to say later on, perhaps.
    We will share that information with you, of course, Mr. 
Secretary and General.
    There is an old adage that the Army travels on its stomach, 
but it also travels with its trucks. You have had a lot of 
experience in that program prior to your appointment as Under 
Secretary. I am sure you can make a fair and objective 
evaluation. If there is a remedy, then we are prepared to 
provide that remedy.
    Thank you.
    Secretary Brownlee. Thank you, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Warner. Thank you for 
that. The subcommittee will be involved in trying to respond to 
the questions you raised.
     Senator Santorum.

               STATEMENT OF SENATOR RICK SANTORUM

    Senator Santorum. Thank you, Mr. Chairman. Just let me say 
a couple of things: First off, it has not just been 4 years 
that we have worked together. It is 4 years on this 
subcommittee.
    Senator Lieberman. Right.
    Senator Santorum. But 2 years prior to that, we worked on 
the old Acquisition and Technology Subcommittee. It has been 
really one of the singularly most gratifying working 
relationships that I have had, working with you on all of those 
subcommittees.
    In listening to your opening statement, I would just say 
that I will sign my name under that statement, every word of 
it.
    I have the exact same concerns as Senator Lieberman, and I 
want to thank you, General, and you, Mr. Secretary, for coming 
here. I am looking forward to a very frank and fresh discussion 
about these issues.
    I think Senator Lieberman and I--we have responsibility not 
just for the Army here, but other programs and other services--
I think I can say that we have the most concern about how the 
Army is dealing with its move into transformation and its 
relevancy in the fighting structure of our country.
    Most concerns are principally driven not entirely by 
differences of opinion on how that direction takes, but I think 
probably more driven by how you pay for it all.
    I think that is what Senator Lieberman was trying to 
articulate. We sit here and look at this budget, and we look at 
what you are trying to accomplish. You are taking a very 
significant risk, and I think Senator Lieberman and I would 
say: Congratulations. We know you have to take that risk, but 
the risk seems to be pretty much loaded on the Legacy Force, 
and not the modernizing, and I think Senator Lieberman laid out 
that situation very well.
    But even with taking all that risk, where 97 percent of 
your funds are going into the Objective Force and you are 
spending all the new money--at least a big chunk of the new 
money--on the Interim Combat Teams, you are still short. You 
are still very short. Regarding Army aviation, the Senator laid 
out how short you are in getting to your objectives.
    You are still short in the research dollars you need and 
the programs, whether it is military construction (MILCON) or 
others, to field these Interim Brigades and to field the 
Objective Force.
    That is to make the assumption, which maybe you do, maybe 
you do not, that somehow more money is going to fall out of the 
sky and all this is going to happen, and at the same time, you 
can have this level of risk with respect to the Legacy Force 
and not modernizing, because you really are not doing a heck of 
a lot of modernization. The Senator is right. We need to flesh 
this out and understand the levels of risk and what decisions 
are being made.
    I have a lot of specific questions about how we are moving 
forward on several systems and several programs, which I will 
reserve for my question time, but suffice it to say that 
Senator Lieberman and I are very concerned about this. We want 
to be helpful.
    We support you fully and I think we have backed it up with 
more money from this subcommittee than from the last two 
administrations, this one and the prior one. We have put our 
money where our mouth is.
    We have been compliant in waiving requirements. I will ask 
you about how that waiver process is going. We want to be 
helpful, but we want to see that this is a realistic plan that 
does not have too much risk associated with it, where down the 
road we could be ending up with an unmodernized Legacy Force, 
an Objective Force that is not ready, and an Interim Brigade 
that may or may not work. Then where are you?
    That is a real concern. I am not as eloquent as the Senator 
from Connecticut in laying out all these things, but that is 
sort of my gut reaction as to where we are.
    Senator Lieberman. But right to the point. Well said. Thank 
you.
    Senator Inhofe.
    Senator Inhofe. Mr. Chairman, I do not have an opening 
statement, but I agree with everything that is being said here. 
While you have been exchanging accolades on this committee, I--
--[Laughter.]
    Senator Lieberman. Would you like to throw a dart at us? 
[Laughter.]
    Senator Inhofe. I served a few years as the chairman and 
then the ranking member of the Readiness and Management Support 
Sucommittee. The issues are the same. Everything you are 
talking about here is a readiness issue.
    It bothers me when I see the very things you are talking 
about, that we are going to be moving into some kind of a 
force, but we are not sure what it is. In the meantime, we are 
at war, at least in one place and I think more than one place.
    We have to have the capability today. We have to have it 
during this interim period. This is a life or death issue. It 
is a readiness issue. Are we ready?
    With the resources we have right now, we are not ready to 
the level that I think we should be ready. That is the way I 
will be approaching it in this committee.
    Senator Lieberman. Thanks, Senator Inhofe. You tempted me 
to say that if you concentrate on the pressures on the Army, 
you could actually make a case--you could probably do it with 
the other services, as well--that though the $48 billion 
increase proposed for the DOD budget is large, you can make a 
case to go higher than that. Or you have to really squeeze and 
make some of the tough decisions internally with regard to 
either the Legacy Force or the Interim Brigades, in this case, 
the combat teams, to find money to get to where you want to go 
and where you really need to go. So I echo what my colleagues 
have said.
    We are from Congress and we are here to help. Truthfully, 
we start with great admiration for the Army. General Shinseki 
took a real turn here in a very admirable direction, and so we 
want to help to make it happen.
    Gentlemen, it is all yours. Secretary Brownlee.

STATEMENT OF HON. LES BROWNLEE, UNDER SECRETARY, UNITED STATES 
                              ARMY

    Secretary Brownlee. Thank you, Mr. Chairman, Senator 
Santorum, Senator Inhofe.
    First, let me just thank all of you for the opportunity to 
come and testify here this afternoon, on behalf of both General 
Keane and myself.
    Mr. Chairman, General Keane and I would like to request 
that our joint written statement be entered into the record.
    Senator Lieberman. Without objection.
    Secretary Brownlee. With your permission, sir, we both have 
short oral statements, which we would like to present.
    Senator Lieberman. Please proceed.
    Secretary Brownlee. Senator, I could not come back here for 
the first time and not make some comment about what an honor it 
is for me to come here and testify before this subcommittee, 
which I had the honor of serving on as a professional staff 
member for many years, contributed something to the naming of 
it, and have watched over the years. I just have to say that 
the statements and comments by the members today indicate that 
the level of knowledge of the members and staff of this 
committee always exceeds the expectations of anybody who sits 
here.
    I promise you it does. So I believe that is good for us. I 
know it is good for the committee. It is a tribute to both the 
members and the staff that serve on this wonderful committee.
    Having spent some 18 years and many hours in this room, I 
have a lot of memories here. I have to tell you that since I 
left about 4 months ago, I miss the work. I miss the people, 
both members and staff. I will always be proud to say that I 
was a member of the staff of this committee.
    If you would be kind enough to indulge me, Mr. Chairman, 
for just a few moments: In the job I had previously, I had the 
opportunity to observe General Keane on many occasions and I 
had a very high admiration for him based on those observations. 
Until I had the opportunity to work next to him on a daily 
basis and observe what he brings to the Army, I just did not 
realize how invaluable what he does is for the Army.
    The management expertise, the dedication and loyalty, and, 
probably most of all, the leadership that he brings to the Army 
is absolutely invaluable. The Army is extremely well served by 
that; and the American people are fortunate that he serves the 
Army in the capacity that he does.
    I am grateful every day for the opportunity to work with 
him, and I am honored to accompany him here today to talk about 
this very important subject of the Army's transformation.
    General Keane and I certainly appreciate the support of 
this committee over the years and especially, not just for the 
Army, but for all of the Armed Services.
    We would also like to thank you for the support shown by 
the significant increase in funding in the fiscal year 2002 
budget, expressed in your authorization bill that the Army 
received, and we hope to continue to earn your support in the 
future.
    As Senator Warner indicated, I had the privilege a few 
months ago of visiting our soldiers in Germany, Italy, Bosnia, 
Kosovo, Kuwait, Pakistan, and Uzbekistan. I had the great 
fortune of spending Christmas Eve and Christmas Day with our 
troops in Bagram, Afghanistan. They truly are the very best in 
the world, and they deserve the very best that we can give them 
in weapons and equipment.
    Today's threats to our Nation's interests are more complex 
and diverse than at any time in our history. There are dangers 
on the home front as well as on the war front.
    As the world and the nature of warfare transforms, so must 
the Army. In fact, with the encouragement and assistance of 
Congress and the administration, the Army is doing everything 
possible to accelerate the pace of Army transformation.
    However, the pace and challenges we are now facing make the 
transformation process more difficult and perhaps more 
important than at any other time during the Army's 226-year 
history. Successful transformation requires a clear vision. 
Secretary White, General Shinseki, and General Keane have 
provided that vision. We will continue to refine it as the 
development of the Objective Force continues.
    Some have argued that the Army is not transforming, that we 
are only modernizing our force. Yet few can disagree that there 
is a revolution underway in information technology. We are at 
the advent of the information age, and we are embedding 
critical information technology in the Army. It is this 
information technology, and the management of the information, 
which leads to the radical changes that characterize 
transformation.
    When I testified before the Senate Armed Services Committee 
last November at my confirmation hearing, Senator Levin asked 
for my thoughts on priorities in transformation among the 
Legacy, Interim and Objective Forces. I told the committee then 
what a very wise division commander told me once, that there 
are no priorities among essentials, that we will have to 
carefully balance the allocation of resources among the 
essential endeavors of readiness, recapitalization and 
transformation.
    After 4 months on the job, I now can add an additional 
challenge: The management of the risks associated with this 
transformation. There are two areas of risks that must be 
carefully managed.
    First, we must manage the risk to readiness brought about 
by refocusing our resources to support the Army's development 
of the Objective Force. Second, we must manage the Army's 
programmatic risks.
    Our first priority to the Nation will always be the Army's 
readiness to respond immediately when called to fight and win 
our Nation's wars. However, we have accepted some near-term 
risk in order to free up needed resources for transformation. 
This required the Army to make some tough decisions. Twenty-
nine programs have been identified for termination in the 
Army's fiscal years 2001 through 2003 budget request.
    One of the ways we are managing risk to readiness is 
through our recapitalizion program. General Keane deserves 
enormous credit for initiating and managing the Army's 
recapitalization program.
    Seventy-five percent of our major combat platforms today 
already exceed their expected half life. In order to maintain 
operational readiness and to stabilize the growth in operating 
and support costs of our aging weapons systems, the Army will 
recapitalize and selectively modernize 17 critical combat 
systems.
    During the Army's recapitalization process, the programs 
selected for recapitalization were thoroughly analyzed. I just 
want to say that when I came to the Pentagon and received a 
briefing on recapitalization, I was more impressed by this 
briefing than any I had seen. General Keane initiated and led 
this effort, and the Army literally put a dollar at a time on 
the modernization and recapitalization of these selected 
systems. So this is a very finely balanced process that we have 
here.
    It is good in the sense that we are not spending money that 
we should not be spending to recapitalize systems beyond the 
period that we would expect to use them. But it has the risk 
that if the schedule changes, then we will have to go back and 
reinvest in these systems to ensure that the Legacy Force does 
not deteriorate prematurely.
    The second type of risk with which we will cope is 
programmatic risk. We are clearly pushing the envelope of high 
technology in order to achieve the lethality, survivability, 
tactical mobility, and improvements in strategic deployability 
envisioned for the Army's Objective Force. Therefore, the Army 
must closely manage Objective Force programmatic risks. We are 
working to address the critical issue of fielding systems 
within budget, on schedule, while meeting the requirements the 
soldiers deserve.
    However, we must also be realistic about the probability of 
success for these programs when we evaluate these risks. We 
will no longer refer to programs as just low, medium, or high 
risk. We will now also estimate the probability of success of a 
program with a schedule, with the resources and with the level 
of technology as we can best estimate. We will look for ways to 
mitigate these risks to give these programs every chance for 
success.
    We may want to decide to mitigate these risks by providing 
more time, more resources, a review of requirements, or we may 
want to pursue a spiral development or block fielding approach.
    If we do not properly address these risks, our programs may 
become chronically underfunded, behind schedule, and not 
perform as expected for our soldiers. Therefore, while we are 
pushing the envelope of technology, we will simultaneously do 
everything we can to identify risks, reduce those risks, and 
optimize our chances for success. Managing both types of 
risks--readiness and programmatic--is critical to the 
achievement of our vision for the Objective Force.
    Finally, the Army will pursue its goals of transformation 
while conducting the current war on terrorism at the same time. 
One thing is certain in this uncertain environment: We will 
need a broad range of capabilities to meet this challenge.
    General Eisenhower, years after World War II, when asked 
where the next war might occur said, ``I hope there will be no 
more warfare. But if and when such a tragedy as war visits us 
again, it is always going to happen under circumstances at 
places and under conditions different from those you expect or 
plan for.''
    Mr. Chairman and distinguished members of the subcommittee, 
I would like to thank you again for this opportunity to return 
here to this distinguished committee in this wonderful room to 
discuss this important issue.
    Senator Lieberman. Thank you, Secretary Brownlee. You are 
off to a very good start on that side of the table. I 
appreciate it.
    General Keane, I look forward to your testimony now.

  STATEMENT OF GEN. JOHN M. KEANE, USA, VICE CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Keane. Thank you, Senator.
    Mr. Chairman, Senator Lieberman, Senator Santorum, 
distinguished members of the subcommittee, I am also honored to 
be here today, and I am particularly honored to be here with 
Secretary Brownlee, my new teammate, who has taken hold of his 
responsibilities faster than anybody else I have ever observed. 
I appreciate the opportunity to appear, again, before the 
subcommittee to discuss Army transformation and modernization.
    Thank you for your great support of the 2002 budget. We 
sincerely appreciate your support for Army readiness, the pay 
increases for our soldiers, and, of course, Army 
transformation. I truly appreciate your thoughtfulness and your 
concern for Army programs.
    Our Nation has been at war for almost 6 months now. The 
performance of the United States military clearly indicates 
that we have the best trained and best equipped military in the 
world. Our soldiers and leaders have performed magnificently 
from the outset.
    From the attack on the Pentagon, with the outright heroism 
that was so vital to saving so many lives, to the fortitude and 
commitment of our work force, both military and civilian, that 
returned to work the next day despite the horrific loss of 
their co-workers; to our 30,000 Active Guard and Reserve 
soldiers, who are defending Americans at home--a black beret 
has come to symbolize security in America--to the 4,400 
soldiers who provided security at the Olympic Games.
    A pleasant footnote to that is we had 11 soldiers 
participating as athletes in the Olympic Games. One received a 
gold medal, another a silver medal, and 3 received bronze 
medals--not bad for 11 Army soldiers. But we are all proud of 
all of our American Olympians.
    To the 27,000 soldiers in Enduring Freedom--as we speak, 
soldiers of the 10th Mountain Division and the 101st Airborne 
Division, our special operation forces, are taking the fight to 
the al Qaeda network in the mountains of Afghanistan--their 
courage and their commitment are nothing less than 
inspirational.
    I have visited our soldiers in Afghanistan, as has Les, and 
I just came from visiting a number of them yesterday, over here 
at Walter Reed. I will tell you, in wearing this uniform for 35 
years, there is a distinct difference.
    First of all, in my 35 years, we have never done anything 
directly and operationally for the American people. It has 
always been to relieve a beleaguered nation, where some thug is 
imposing his will on his people or somebody else's people. When 
you see our soldiers today doing what we are asking them to do, 
there is an edge out there that is different.
    Their morale has always been high on any operation they 
have conducted that I have ever observed. But today there is an 
intensity and a determination there that is just a little 
different. If you pay close attention to them, you can see it 
and you can clearly feel it.
    Tommy Franks showed me a message he received from a 
captain, an Air Force special forces officer, who is 30 years 
of age, and he is advising a general in the Afghani military 
who is commanding some 7,000 troops, and this general is 15 
years his senior. He said, ``We have little water and much less 
food, haven't eaten much in the last 3 days; hardly any sleep 
in the last two. Our Afghani soldiers have less than ten rounds 
per man. We are attacking. We are attacking'' That was the end 
of message.
    A soldier I ran into in the hospital last night took a 
bullet wound in his leg that fortunately went clear through his 
lower extremity without a lot of damage. When he landed in his 
landing zone (LZ) as a soldier in the 10th Mountain Division, 
he took fire from an altitude higher than his, and his 
organization was caught in the crossfire. They were a platoon, 
and their stated purpose was to provide security for the 
battalion commander and his staff, who were also in this LZ.
    So they were brought under fire and they had mortars 
impacting in the area as well as direct fire. What the soldier 
was so proud of is--he said, ``Sir, just as we did in 
training,'' he said, ``we immediately began to respond.'' He 
said, ``Without any commands by anybody, we knew that we were 
going to take the fight to them despite the fact we were 
outnumbered. We could easily have gone over the ridge behind 
us. Nobody stood up to move to that ridge. We took the fight to 
them.''
    About 14 of them were wounded. They did not suffer any 
fatalities. They killed somewhere in the neighborhood of 40 or 
50 of the enemy, which numbered in the hundreds. The enemy made 
3 attacks against them that night over a 12-hour fight, and the 
soldiers never budged.
    He said, ``Our mission there was to fight, not to protect 
ourselves. We were prepared to fight right there, to kill these 
guys. If it meant our lives, we were going to do it.''
    You cannot buy that kind of devotion and that kind of 
spirit, you cannot put a price tag on it. It is about young 
Americans who reflect the values of the American people. They 
truly understand what this war is about.
    They are willing to make the ultimate sacrifice to do what 
is right for our people. So we are all honored, who are in 
leadership positions, just to be a part of a force like that 
and an attitude like that.
    As to the President's 2003 budget, in my view, it is a down 
payment on unaddressed requirements. It does go a long way 
toward funding the Army's priorities, which are winning the war 
on terrorism, preparing for transformation, and certainly 
taking care of our people.
    It does not fund everything, as we all know. We have had to 
make some tough decisions. Les mentioned the programs that we 
have had to kill, and 18 of them surround this budget and the 
Future Years Defense Program (FYDP). We also are reducing our 
helicopter fleet by 1,000, and we are reducing our headquarters 
at the headquarters level by 15 percent.
    It does represent a $10 billion increase over the 2002 
request. It is a balanced program, in our view, that will allow 
the Army to remain trained and ready throughout the year 2003, 
while ensuring our force is protected and we execute the war on 
terrorism and also to prepare for future wars.
    In terms of preparing for future wars, obviously we define 
them as transformation. The world has changed and it is 
changing, and the Army must adapt. General Shinseki and the 
Secretary have made the commitment to that change, and it is 
exciting to be a part of it. ``Transformation'' is the only 
word that could adequately describe what our Army is doing. We 
are fundamentally changing the way the Army will fight and how 
the Army will deploy.
    We intend to begin fielding the Objective Force this 
decade. It is ambitious. There is risk in it, but we are 
committed to it. Gone, as far as we are concerned, are the 
acquisition cycles of the past, which are 15, 20 years in 
length, and we are using new approaches to bringing this 
Objective Force in.
    Instead of the linear sequential operations of the past, 
the Objective Force will fight in a distributed, dispersed 
manner. We will be highly responsive and deploy rapidly as a 
result of reduced platform weight and small logistical 
formations and footprints. We will arrive early to a crisis to 
dissuade and deter conflict, or, if necessary, fight.
    Superior situational awareness and integrated command and 
control systems will allow us to identify and attack critical 
enemy capabilities and key vulnerabilities throughout the depth 
of a battle space, without the massed formations of the past. 
The budget supports the development of these capabilities by 
dedicating 97 percent of our science and technology to the 
Objective Force and, of course, funding Comanche.
    The 2003 budget also supports the Objective Force by 
funding selective recapitalization and modernization of our 
Legacy Force. Not well understood by many is the fact that 66 
percent of the Legacy Force modernization will transition to 
the Objective Force to include the CH-47 Chinook, UH-60 Black 
Hawk, Army Battle Command System, Patriot, and HIMARS, just to 
name a few.
    We have also fully funded Crusader, which will provide the 
Army significantly enhanced indirect fire support capabilities 
well into the 21st century. In my judgment, it will contribute 
to the development of our Future Combat Systems.
    The Interim Force is a transition force, and it represents 
a much needed capability that will combine the best 
characteristics of the Army's current heavy and light forces 
organized into Interim Brigade Combat Teams. It will leverage 
today's technology with selected capabilities of the Legacy 
Force to fill an operational shortfall and serve as a link to 
the Objective Force.
    The first of these six Interim Brigades will begin fielding 
this year a company in August, a battalion in December, and a 
brigade operational capability in May. The second IBCT, also at 
Fort Lewis, Washington, is funded in the 2002 budget. The 2003 
budget funds the third Interim Brigade in Alaska. Three 
additional IBCTs are programmed for Louisiana, Hawaii, and 
Pennsylvania.
    The third element of transformation is the legacy of the 
current force. That is the force that is at war today. By 
selectively modernizing and recapitalizing existing systems, we 
will guarantee the Army's near-term war fighting readiness 
through the transformation process. A portion of this force 
will be with us until 2020.
    In conclusion, just let me say that maintaining a trained 
and ready Army now and for the future is a shared 
responsibility. With your help, we will remain fully prepared 
to defend against any near threat. With your help, the Army 
will transform to face the challenges that lie ahead.
    We appreciate your continued support and I will look 
forward to your questions. Thank you.
    [The prepared joint statement of Under Secretary Brownlee 
and General Keane follows:]
Prepared Joint Statement by Under Secretary Les Brownlee and Gen. John 
                             M. Keane, USA
    Mr. Chairman and distinguished members of the committee, we thank 
you for this opportunity to report to you on the status of Army 
transformation.
    On behalf of every soldier, civilian, and Army family member we 
would first like to thank this subcommittee, and Congress as a whole, 
for the considerable increase in funding associated with the fiscal 
year 2002 budget. With that budget came a compelling message to the 
entire Army--America appreciates the commitment that every soldier and 
civilian has to the defense of our Nation.
    Your support provided pay increases of at least 5 percent across 
the board for soldiers and 3.6 percent for the civilian work force. 
Additionally, targeted pay increases for selected skills and mid-grade 
officers, upgraded single-soldier barracks, and improvements to our 
residential communities have done much to enhance the quality of life 
throughout the Army.
    We also appreciate your continued support of our Army's 
transformation goals. With your help, the Army is able to fully fund 
the second Interim Brigade Combat Team and commit greater resources 
toward science and technology, significantly enhancing our efforts to 
accelerate implementation of the Objective Force.
                     the war--the need to transform
    Today, we are engaged in a global war on terrorism. The conduct of 
our Army throughout this war clearly indicates that we are trained and 
ready to fight and win the Nation's wars. Our simultaneous commitment 
to a significant number of smaller scale contingencies and stability 
operations throughout the world underscores our military capability and 
state of readiness. These same missions also illustrate the need for an 
Army that is more strategically responsive, deployable, and versatile.
    The Army has no illusions about the challenges it faces. We must 
help our sister services win the global war on terrorism and 
simultaneously prepare for future wars by effectively using the 
resources you provide us. With the continued support of Congress and 
the administration, the Army will continue to fulfill its role in the 
war on terrorism, maintain our near-term readiness for unexpected 
challenges, and rapidly transform to fight and win our future 
conflicts.
                             transformation
    Transformation is the key to the Army's ability to meet our 
obligations and challenges. It changes the way we fight and the way we 
deploy. The transformed Army will be as survivable, as lethal, and as 
tactically mobile as our heavy forces, but far more strategically 
deployable. We will transform to a more strategically responsive force 
that is dominant across the full spectrum of military operations. 
Developments in technology and our pursuit of network-centric warfare 
will provide us with unprecedented situational awareness, enabling Army 
formations to maneuver with greater precision and dispersion. We will 
know where the enemy is and where our own people are, and we will be 
able to impose our will on the enemy at the time and place of our 
choosing. We will exploit vertical envelopment to avoid large movements 
along predictable lines of communication and focus our efforts on the 
enemy's strategic centers of gravity.
    In effect, we intend to break our ties with the Cold War formations 
that relied on the principle of mass and the build-up of large forces. 
With the implementation of change throughout its doctrine, training, 
leader development, organization, materiel, and soldier systems, the 
Army is taking a holistic approach to transformation--the result will 
be a different Army, not just a modernized version of the current Army.
    Transformation consists of 3 interrelated elements--the Objective 
Force, the Interim Force, and the Legacy Force. We will develop 
concepts and technologies for the Objective Force while fielding an 
Interim Force to meet near-term requirements and bridge the operational 
gap between our heavy and light forces. The third element of 
transformation--the Legacy Force--refers to the selective modernization 
and recapitalization of existing systems to provide enhanced 
capabilities that will guarantee our readiness through the 
transformation process.
                            the legacy force
    The Legacy Force--the force that is at war today--will guarantee 
the Army's near-term warfighting readiness for the next 10 to 15 years 
and is critical to the development of the Objective Force. The leaders 
and soldiers of today's Army will advance the tactics, techniques and 
procedures for network centric warfare using enhanced Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C\4\ISR) systems on modified Legacy platforms. They 
will help to identify the Soldier-Leader skills required in the 
Objective Force and assess our current ability to cultivate those 
skills.
    The Army's first digitized division, the 4th Infantry Division, has 
already established the significant role of the Legacy Force in the 
development of the Objective Force. During two Division Capstone 
Exercises, the 4th Infantry Division demonstrated quantum leaps in 
capability and indicate the significant progress we have made toward 
implementing the warfighting concepts outlined in the Army's new 
operations field manual (FM-3).
                           the interim force
    The Interim Force is a transition force that will combine the best 
characteristics of the Army's current heavy and light forces. Organized 
into Interim Brigade Combat Teams (IBCTs), it will leverage today's 
technology with selected capabilities of the Legacy Force to serve as a 
link to the Objective Force. Most importantly, the Interim Force will 
allow exploration of new operational concepts relevant to the Objective 
Force. The Army will field six of these new, more responsive IBCTs. 
These units comprise an Interim Force that will strengthen deterrence 
and expand options for the field commanders.
    Over the past 2 years, we have organized two brigades at Fort 
Lewis, Washington, with additional IBCTs programmed for Alaska, Hawaii, 
Louisiana, and Pennsylvania. The Army is working to develop wide-
ranging changes to doctrine, training, logistics, organizations, 
materiel, and soldier systems required to field and employ the Interim 
Force. The first IBCT has completed brigade and battalion level 
headquarters training with the Army's Battle Command Training Program. 
Additionally, this IBCT has completed company-level maneuver live fire 
training and will attain its first incremental war fighting 
capability--an infantry company--in August of this year. The IBCT will 
achieve battalion-level capability in December 2002 and full initial 
operational capability in May 2003.
    Training of the Interim Force is proving that the practice of 
combining heavy and light cultures results in more adaptable and 
capable leaders and soldiers. The Army has learned from experimentation 
that technology such as digitization allows the integration of 
intelligence data with tactical and operational information and gives 
our leaders and soldiers the ability to seize and retain the 
initiative, build momentum quickly, and win decisively.
                          the objective force
    The end result of transformation is a new, more effective, and more 
efficient Army with a new fighting structure--the Objective Force. It 
will provide our Nation with an increased range of options for crisis 
response, engagement, or sustained land force operations. Instead of 
the linear sequential operations of the past, the Objective Force will 
fight in a distributed and non-contiguous manner. Objective Force units 
will be highly responsive, deploy rapidly as a result of reduced 
platform weight and smaller logistical footprints, and arrive early to 
a crisis to dissuade or deter conflict. With superior situational 
awareness, Objective Force soldiers will identify and attack critical 
enemy capabilities and key vulnerabilities throughout the depth of the 
battle space. For optimum success, we will harmonize our transformation 
efforts with similar efforts by other services, business and industry, 
and our science and technology partners.
    By focusing much of its spending in science and technology, the 
Army will create a new family of ground systems called the Future 
Combat Systems (FCS). This networked system-of-systems--a key to 
fielding the Objective Force--will allow leaders and soldiers to 
harness the power of digitized information systems. The FCS will allow 
commanders to bring a substantial, perhaps even exponential, increase 
in combat capabilities to the joint force without a large logistics 
footprint. Newer technologies will be inserted into the FCS as they 
become ready. The Army recently awarded the solicitation for the FCS 
Lead Systems Integrator (LSI). In coordination with the Army and DARPA, 
the LSI will select the ``best of breed'' technologies, components, and 
sub-components through maximum competition among the sub-contractors. 
The LSI is a new solicitation and acquisition strategy that will 
accelerate Army transformation. In the fiscal year 2003 budget, we 
invested 97 percent of our science and technology resources toward the 
design and development of the Objective Force and enabling 
technologies--technologies that will take us to the system development 
and demonstration phase for the Future Combat Systems. With this 
funding level, the Army will begin fielding the Objective Force this 
decade.
    We owe our soldiers the best tools and equipment so they are not 
put at risk by obsolete or aging combat support systems. The Comanche 
helicopter, the Objective Force Warrior system, and C\4\ISR initiatives 
are integral components of the network-centric operations of the 
Objective Force. They are the infrastructure that allows soldiers to do 
what they do best--fight and win our Nation's wars. Comanche will 
provide an armed aerial reconnaissance capability critical for 
gathering intelligence for coordinated attacks against targets of 
opportunity, and the fiscal year 2003 budget supports continued 
development and flight testing. The Objective Force Warrior system will 
provide quantum improvements over our current soldier systems in 
weight, signature, information exchange capabilities, ballistics 
tolerance, and chemical, biological, and environmental protection for 
individual soldiers on the battlefield.
    Terrestrial systems alone will not enable full spectrum dominance. 
Space is a vertical extension of the battlefield and a key enabler and 
force multiplier for land force operations. Objective Force commanders 
will access and integrate the full spectrum of C\4\ISR and information 
operations capabilities, to include national agencies, strategic and 
operational units, tactical organizations, and joint or multinational 
forces. In short, commanders will draw upon a wide array of 
capabilities that enable not just overwhelming force projection, but 
the ability to out-think our adversaries.
    Transporting and sustaining the Objective Force will require 
capabilities that are cost effective, adhere to rapid deployment 
timelines, and have a smaller logistical footprint over longer 
distances without jeopardizing readiness. Materiel readiness will be 
maintained at reduced costs by increasing inventory visibility and 
integrating automated systems.
                         funding transformation
    The Army has made difficult choices in the last three budgets in 
order to resource those programs that will enable the Army to 
accelerate transformation with a goal of beginning to field the 
Objective Force this decade. In concert with increased funding, we have 
altered our investment strategies, terminated programs, focused our 
science and technology, and targeted selective systems for 
modernization and recapitalization--measures that balance near-term 
readiness with the timely development and fielding of the Objective 
Force
                          investment strategy
    Beginning in 1999, the Army's investment strategy reflects a 
significant shift from resourcing legacy capabilities to resourcing the 
Objective Force. The Army terminated heavy ground combat systems such 
as the Command and Control Vehicle and the Grizzly obstacle breaching 
vehicle, but kept lighter and Objective Force capable systems such as 
the Land Warrior, Tactical Unmanned Aerial Vehicle, High Mobility 
Artillery Rocket System, Crusader, and Comanche. Crusader represents an 
example of a system that we have modified by significantly reducing its 
weight while retaining its dominant range and firepower. The Crusader 
will provide critical indirect fire support to the Army for the 
foreseeable future.
    The Army generated more than $13 billion in transformation funding 
by terminating, or restructuring 29 different research, development, 
and acquisition programs over the past 3 years. These cost savings, in 
concert with Congressional and OSD funding increases, enabled the Army 
to fund our key transformation priorities.
                   recapitalization and modernization
    Recapitalization is the cornerstone of the Army's strategy to 
sustain its warfighting capability throughout the fielding of the 
Objective Force. We are compelled to pursue this course of action 
because 75 percent of the current force exceeds its expected half-life 
and is becoming increasingly expensive to maintain. Our strategy is to 
selectively rebuild or upgrade 17 systems that will remain in the 
inventory for the next 15 to 20 years and achieve an average fleet age 
of no more than half of a system's expected service life. These systems 
include the M1 Abrams tank, M2 Bradley fighting vehicle, AH-64 Apache, 
UH-60 Black Hawk, and CH-47 Chinook. If sufficiently resourced, this 
investment in future readiness will sustain warfighting capabilities, 
reduce the cost of ownership, and extend the service life of systems 
until the Objective Force is fielded throughout the Army.
    Aviation modernization and restructuring will eventually reduce our 
helicopter inventory by 25 percent and allow the Army to retain only 3 
types of helicopters. The plan calls for the divestiture of 1,000 
helicopters (all Vietnam-era UH-1 Iroquois) by fiscal year 2004 and 
permits savings in training and logistics to be used in support of the 
recapitalization of our remaining fleet--the AH-64 Apache, UH-60 Black 
Hawk, and CH-47 Chinook.
                            risk management
    For transformation to be successful, we must balance the boldness 
of our desire for an Objective Force with the requirement to be ready 
to fight a major conflict at any time between now and the fielding of 
that Objective Force. Our investment strategy, however, does entail a 
certain degree of risk--a risk we must accept to fund transformation.
    Our first concern is to balance the requirement to remain ready 
while we transform. The Army has made tough decisions in terminating or 
restructuring many programs during the past 3 years, accepting near-
term risk to free up resources for transformation. A portion of those 
savings is paying for modernization and recapitalization of the Legacy 
Force.
    The Army has accepted risk by funding the Legacy Force 
modernization and recapitalization at only 60 percent of its validated 
requirement. Our recapitalization program, however, is based on in-
depth analysis to determine the right systems and levels of 
modernization for the 17 selected systems. This process will enable the 
Army to make essential adjustments if the schedules for either the 
IBCTs or the Objective Force change significantly.
    In the case of the Objective Force, we are truly embarked on a 
process of transforming the Army. Our efforts will push the 
technological envelope in order to achieve the lethality, 
survivability, tactical mobility, and improved strategic deployability 
the Army seeks. Some of these acquisition programs are clearly high 
risk. While we are pushing the envelope of transformation, we will do 
everything possible to reduce risk and give these programs every chance 
for success.
                               conclusion
    For over 226 years, the Army has kept its covenant with the 
American people to fight and win our Nation's wars. In all that time, 
we have never failed them and we never will. The war on terrorism, the 
requirement to secure the homeland, and the need to maintain readiness 
for possible near-term contingencies have validated the need for a new 
kind of Army--a capabilities-based ground force that can fight and win 
battles across the full spectrum of military operations.
    The Army cannot predict what other changes the future will bring, 
but what will not change is the need for our Nation to have the best 
trained, best led, and best equipped soldiers on the ground, deployed 
rapidly at precisely the right time, the right place, and with the 
right support structure as part of a joint military team.
    Building and maintaining an Army is a shared responsibility between 
Congress, the administration, those in uniform, and the American 
people. Working with Congress, we will keep the Army ready to meet 
today's challenges and continue to make significant strides toward 
achieving the vision announced in 1999.
    Mr. Chairman and distinguished members of the committee, we thank 
you once again for this opportunity to report to you today on the state 
of your Army. We look forward to discussing these issues with you.

    Senator Lieberman. Thanks, General Keane.
    Let me begin with the broad question that is implicit in 
our opening statements. How, in a resource limited 
environment--even though it is increasing, it is still limited 
in terms of the demands on you--do you prioritize among the 
requirements to develop and field the Objective Force, to field 
the Interim Force, and to selectively modernize and 
recapitalize the Legacy Force? What is the overview of values 
that you apply in that tough job?
    Secretary Brownlee. Mr. Chairman, as I indicated, one of 
the critical challenges is maintaining the right balance here. 
Again, I look back to the recapitalization program that General 
Keane had the Army put together to ensure that we were not 
spending any more dollars than we had to on the Legacy Force, 
but that it, in fact, was ready to go to war.
    Second, the Army has been encouraged and has received the 
assistance from Congress and the administration to try to 
transform itself into something that is totally different than 
the force we all know today. That is why we are looking toward 
this Objective Force, described to most of us as a system of 
systems.
    The Interim Force, as you indicated in your statement, sir, 
will hopefully provide a touchstone for the Army to get to the 
Objective Force, while at the same time providing badly needed 
forces that are more deployable and yet still more effective 
than the light forces--to be more deployable than the heavy, 
still more effective than the light.
    So the Army is, as I have indicated, incurring high risk 
here. The alternative is, as Jack indicated, to use the old 
acquisition programs and to throttle back into a schedule that 
is not high risk. But it does require careful management, so 
that at points in time decisions can be made and if, for some 
reason, the schedule changes and the Objective Force might slip 
to the right, then we are going to have to make the decision to 
go back and reinvest in some of the Legacy Force and to ensure 
that it is ready to go.
    Senator Lieberman. General Keane, does the balance mean 
that there is equal priority given to the three elements: 
Legacy, Interim, and Objective Force?
    General Keane. Certainly. Clearly in terms of priority the 
future of the Objective Force is the most important, because it 
redesigns and reorganizes the Army and it changes the way we 
fight.
    Senator Lieberman. So you would say that would be the 
priority?
    General Keane. In terms of a future----
    Senator Lieberman. Right.
    General Keane.--future readiness. But the thing that we 
always have to--and this problem has been faced by our 
predecessors as well--is you have to balance against the 
readiness of the current force.
    Now, what is aggravating our situation certainly is the 
pace at which that current force is demanded for use, which is 
a little different than what many of our predecessors had to 
face post-World War II.
    Senator Lieberman. Sure.
    General Keane. That is a reality that is here. So when you 
look at our budgets, you will see that as we receive the 
increased money, when you take a look closely at that money, 
most of it goes to direct the programs. So what the Army had to 
do to maintain its readiness account, we moved money into those 
readiness accounts. So the killing of those systems was not 
just for transformation, but was also to keep the current force 
ready.
    It is the same dilemma that our predecessors have been 
dealing with for close to 14, 15 years, as you are painfully 
aware of.
    The bill payer for all of that has always been two places--
one, our installation support accounts, and also our 
modernization accounts. Obviously, we are still doing some of 
the same, but in the same regard, we are attempting to conduct 
the transformation.
    Now, we had choices, and we have made those choices. We 
revisit those choices continuously.
    The first choice that we had to make as it pertains to 
transformation was we recognized we have had an operational 
shortfall for a number of years in terms of moving this force 
more responsibly and getting it to respond with good, effective 
tactical mobility and yet be survivable, to have the 
characteristics of the light force combined with the heavy 
force. So we knew that problem has been there. We knew we had 
to solve it.
    We know that the Objective Force will solve that problem 
for us. But do we do something about it in the near term? That 
was choice one. Choice one for us is that in our minds we 
have--just to be frank with you, and we have had frank 
discussions before--we have already waited too long to solve 
that operational shortfall problem.
    We felt we could ill afford to continue to not give the 
National Command Authority this capability to employ so that 
they have choices themselves to make when it comes to employing 
forces, deterring conflict or fighting, if necessary. That was 
choice one, and that was Interim Brigade.
    Then what is the requirement with what we looked at? We 
took a hard look at that requirement. You have to balance the 
war fighting requirements and those are to the major MTWs. We 
would deploy these initially there.
    Remember the shortfall we had in the past. It was very 
obvious in Desert Storm when we put the 82nd in, and we did not 
have this kind of capability to deploy early on. We have solved 
some of that problem there, because we have prepositioned 
equipment there. But in other places of the world where we may 
fight, we still do not have that capability that we would like 
to have. So one, war fighting requirements.
    We also know that as you deploy this force to meet the 
operational requirements in peace time, you have to have some 
rotational base to deploy that force. In other words, if you 
deploy an IBCT, you have to have the capability to rotate 
another one in there. You cannot keep those soldiers there 
indefinitely in a peace time rotation.
    So we took war time requirements and also looked at the 
rotation base that we have to have, and that is how we arrived 
at the number six.
    Senator Lieberman. All right.
    General Keane. Actually, we could use more than that. But 
we watered that down to six also because we are always making 
decisions based on what we believe are fiscal constraints as 
well.
    The second choice we had was the Objective Force. How fast 
do we go after this? Our examination on this thing was that--
and we said to ourselves, having looked at this for years--
first of all, the FCS, as a concept and a system, was out in 
2020 by our predecessors. We brought that into 2010.
    Senator Lieberman. Right.
    General Keane. We said, ``We can ill afford to continue an 
acquisition cycle like that. Let us put pressure on this system 
as much as we can.''
    Our own acquisition people who work with industry were 
bellyaching over this in a big way right from the beginning, 
and truth be known, they still do it. They just do not do it to 
our faces anymore.
    The fact of the matter is that we have to change this 
acquisition system. The use of the lead system integrator is a 
step in that direction.
    We learned from watching BMDO as it proceeded with the 
national missile defense and their lead system integrator, how 
it has helped them in their process. So we are hopeful. We have 
never done it before. We think it is a risk that is acceptable 
to us to help to get this system in faster than what it is.
    So those were tough decisions we have made. What we are 
attempting to do in each budget year that we are facing is 
balance the program across those requirements--the requirements 
of a trained and ready force, and also the requirement to 
prepare for future readiness by transformation.
    We intend to do that each succeeding year, so we will have 
tough choices in the future as well, and we understand that.
    Senator Lieberman. My time is up on this round. I wonder if 
I can indulge myself, I guess, and ask my colleagues' 
indulgence and ask you to see if you can give me a brief 
answer.
    Maybe you have answered this, but it leads me to say that 
this is the third year since the Army launched its 
transformation effort that the budget has come to Congress with 
unfunded requirements for Future Combat Systems; in this case, 
$190 million for S&T, and $200 million for RDT&E.
    So the question is: How did the process you have 
described--and I understand you are trying to squeeze a lot 
into not as much as you should have. Why did it end up not 
fully funding the Objective Force?
    General Keane. That specific point was--it dealt with 
affordability, and it dealt with what we thought we could 
accept as risk.
    Ninety-seven percent of our S&T account is in there. That 
money was actually offered to us by our people who are in 
charge of acquisition and said to us in our own budget council 
meetings we were having, that ``We think this is an acceptable 
risk,'' and gave that money back to us to use in other places. 
I was not even asking for it.
    So we think we are okay there, Senator. It is a risk that 
is bearable, as far as we are concerned.
    Senator Lieberman. Okay. Thanks very much.
    Senator Santorum.
    Secretary Brownlee. Senator, if I could just add to that?
    Senator Lieberman. Yes, sure.
    Secretary Brownlee. Of course, what is in the unfunded 
requirements (UFR) list is not in the present budget, of 
course, but anything that would be added in that sense might 
help to reduce some of the risk. So that is the reason I think 
the rationale was to put it in.
    Senator Lieberman. Okay.
    Senator Santorum.
    Senator Santorum. Okay. I mentioned in my opening remarks 
that I was going to ask you for a status report on your ability 
to obtain a waiver of the side-by-side. I just wanted to know 
how that was proceeding.
    Secretary Brownlee. Yes, sir. Sir, the Army is working as 
we speak to put together a package to comply with the 
provisions that were put into law last year by this committee 
in conference. That package, once it has been reviewed, will be 
forwarded to the Secretary of Defense.
    The information that is within that package will comply in 
every sense with both the spirit and intent of the law. It will 
describe what might be yielded from a comparative evaluation, 
that the information provided in there would be complete, and 
that other useful information would not be.
    It will provide sufficient information to the Secretary of 
Defense so that he can make those certifications that are 
required by law so that those waivers can be enacted.
    Senator Santorum. Okay. I appreciate that.
    I have an additional concern with the Interim Force, and 
the Interim Brigade Combat Team. It's my understanding that you 
have declared your intent to go to IOC before you go through 
Inital Operations Test & Evaluation (IOT&E).
    Now, that is--at least to the members of the staff here, 
this is a new idea. I just have to say that I am a little 
concerned that we are sort of moving things out of the way to 
get to where we need to go and not looking at what is, whether 
we are really ready to move forward.
    General Keane. Yes, sir. Can I take that?
    Secretary Brownlee. Yes, sir.
    Senator Santorum. Is that a waiver? Do you need to get a 
waiver to do that, or you can just go ahead and do it?
    General Keane. Well, we are prepared to do it, and for a 
couple of reasons. We gave that a lot of thought and here is 
our rationale behind it.
    First of all, the vehicles that we are acquiring, in the 
sense--except for the MGS, the mobile gun system--are not 
developmental items. The vehicles that we are acquiring, the 
IAVs and its eight variants, are vehicles that have basically 
existed before.
    That was one of the reasons to go with this program in the 
beginning. We wanted to shorten the time when we can get this 
operational capability into the force. So we did something 
historically that we have not done in the Army, which is to go 
some place else and find vehicles that other people were 
already using.
    Essentially, that is what we have done here. So that is 
point one. The commonality among these vehicles is very 
significant.
    The other thing is we are not being the least bit cavalier 
about this. As we speak, safety, survivability, and lethality 
tests are being conducted on the vehicles.
    Senator Santorum. You say they are being conducted on these 
vehicles. Are these the vehicles that meet the weight 
limitations that you are talking about, or the vehicles that do 
not meet the weight? Because we have a problem with weight on a 
lot of these vehicles.
    General Keane. Yes.
    Senator Santorum. So what are we testing?
    General Keane. Let me deal with weight as a separate issue, 
because if there is something that has been completely 
misunderstood about weight, it is that, and I can deal with it.
    Senator Santorum. Okay.
    General Keane. So we believe we are taking a calculated 
risk here. It is very acceptable to us because right now we are 
finishing the live fire testing on these vehicles, as an 
example.
    The IOT&E takes place after we have certified the 
operational concept of the vehicles and we will go back and do 
some further testing on the platforms themselves. We feel very 
comfortable, because it is a non-developmental item, and we are 
putting government equipment on those vehicles that we have 
already tested. We are going to be in pretty good shape here.
    So the IOT&E, while it comes after the operational 
certification of the vehicles, which is in April and May, does 
not present a problem to us.
    The weight of the vehicles, sir, is misunderstood. There 
was a Defense News article, I think, that has led to the 
misrepresentation. We have established the C-130 as the 
crucible for this vehicle for a lot of reasons.
    One is that it is a way of slimming down the whole Army. 
That is one. Two, operationally, we want to be able to move 
this vehicle into unimproved landing strips and so on 
throughout an operational battle space to give us huge 
flexibility. The requirement that we assign to ourselves is 
that we want to at least be able to move the vehicle 1,000 
nautical miles in the C-130.
    For it to move 1,000 nautical miles, it cannot weigh more 
than 38,000 pounds. We can get the IAV and all of its variants, 
except the MGS, underneath that 38,000 pounds. We can do that.
    Now, if we add the nine infantry soldiers and add all the 
ammunition that is going to be required for a 15-day operation 
and fully upload the vehicle with fuel, then the vehicle will 
go over the 38,000 pounds--true statement. That is what got 
misrepresented in that article, and it is an unfortunate 
misrepresentation.
    Senator Santorum. But is it a misrepresentation if the 
whole objective of this force is to have force projection in a 
very easily and quickly deployable fashion?
    General Keane. Sure.
    Senator Santorum. Well, if that is the objective, how can 
you leave all this stuff out and deploy this and meet your 
objective?
    General Keane. Well, no. We would not leave it out. What I 
am suggesting to you is that we could still move it the 1,000 
nautical miles. It will take you more airplanes to do it. All 
of that would not fit in that single airplane. That is the 
issue.
    Now, the MGS is 3,000 pounds overweight. It cannot fit in 
a--what our standard is of 38,000 pounds. We are going through 
some tests and studies to get that weight down, changing the 
hatches and a few other things.
    We are looking at about 190 different pieces on the MGS. 
What I think will happen as a result of that, frankly, is that 
some of that study will work. We will probably take it and 
apply it not only to the MGS but to some of the other vehicles 
as well.
    Senator Santorum. Okay. Let me ask you about the Objective 
Force, and a couple of my concerns there. I just have to tell 
you, just from the seat of the pants looking at this, and one 
of the concerns I have in looking at General Shinseki's famous 
chart that he wished he had never put together----[Laughter.]
    --is: Now I am beginning to think that what may be 
happening as you take what I think and maybe, as you have 
explained, you are not taking, additional risk on your S&T 
budget for the Objective Force.
    But it sounds to me like you are moving it up dramatically, 
and yet you have programs like Comanche that keep getting 
pushed back dramatically, and you talk about the life cycles of 
programs, and you say ``We are going to shorten them.''
    Well, you do not have a very good example in this case of 
shortening development cycles. You have a pretty bad example 
here of how that is not being done on one of the most crucial 
elements of making this whole system work. So I have doubts.
    Now, you are accelerating from 2020 to 2010, now to 2008. 
We are not funding it as robustly as some have suggested. What 
I fear is that this interim combat system becomes the Objective 
Force, that what we are doing here is just tweaking it a little 
bit at the end and we are going to declare this as our 
transformation.
    Now, that may well indeed be where we end up. My time is 
up, and I know Jim has a round of questions. It's probably best 
if I just hold this thought.
    Senator Inhofe. Go on.
    Senator Santorum. You sure you are okay?
    Senator Inhofe. Yes. Go ahead.
    Senator Santorum. My concern is that you have a lead system 
integrator--and I think that is great. Now, I commend you for 
going in that direction, and I think it is wonderful that you 
are going to have some outside eyes who are not interested in 
procuring the product look at it.
    I just want to make sure that these folks can look at what 
is available in technology, and what is out there in the next 5 
to 7 years, and can make the determination that, you know what? 
There is not a leap forward right now that we can do.
    Is that something they can come back with? Is that an 
option that is available to them? I am concerned we are pushing 
this thing and not putting the resources behind it to get to 
where we want to go. That is my concern; and that we are going 
to end up with just an Interim Brigade that will be your 
Objective Force.
    Secretary Brownlee. Senator, if I can respond, I certainly 
agree that when we accelerate programs like this, we tend to 
increase the risk in the program. That is one of the reasons 
that I have asked the Army staff now whenever they brief the 
Secretary and myself, the Chief and the Vice, and they come in 
and they tell us a program is high risk. They now have to also 
tell us the probability of success of that program on that 
schedule with that amount of money, with the technology as we 
know it.
    So not only will they say ``This is high risk,'' then they 
will have to give an estimate of the overall probability of 
success. It will be a subjective estimate in many cases. They 
are trying to struggle now for the best way to quantify it.
    But that way if they tell us that it is high risk and the 
probability of success is .5 or .25, then that provides the 
opportunity for us to consider at that point ``What can we do 
to mitigate this risk?''
    There are decision points and milestones during the concept 
development stage, which is what we are about to enter right 
now. It is a 16-month program wherein the lead systems 
integrator in conjunction with the DARPA, who is very much 
involved in this, and the Army, will work to develop 
operational requirements documents, specifications, 
architectures, and integrations. Keep in mind this is not 
buying one vehicle or one radio or one weapon. This is buying a 
system of systems.
    You might say, and I have said, ``Does that not increase 
the risk also?'' It may. But it also, I think, provides more 
justification for the process.
    I said in my statement that the Army was pushing to 
accelerate the pace of transformation as much as possible. I 
believe that is true. But everybody involved understands that 
there are milestones here, where we have to make what I would 
call cold-blooded and hard-bitten decisions.
    If we get to the point where, as you assert, the technology 
may not be there, then we will have to look at what we do at 
that point. It may be that we adopt a block fielding approach. 
It may be that the first iteration of the Objective Force is a 
threshold capability. It may be that that threshold capability 
may not offer obviously a lot more capability than you would 
have in the IBCT. But it is a threshold capability.
    As we move to future blocks, then it would be more capable. 
So yes, it is ambitious. Yes, it is high risk.
    The alternative is to throttle it back and give it more 
time and use some of the older ways of doing things. The Army 
has chosen to move forward at this pace, and I can assure you 
that there will be some of us in the process who are looking 
very closely--I know General Keane and myself have discussed 
this--to watch this process and be sure that as we proceed from 
point to point, we not only ensure that, as near as we can 
determine, the technology is there and there is a good chance 
for success; but if there is not, we have to go back and look 
at the other force.
    General Keane. Senator, your comments are--it is like you 
have been eavesdropping on our meetings, because we have----
    Senator Santorum. As a matter of fact--no. [Laughter.]
    General Keane. We have much of the same concerns ourselves. 
We express them to ourselves. I think we are intimately aware 
of our track record, and some of that is painful to look at.
    Certainly, the Comanche is no exception to that. Much of 
the problem with the Comanche is the Army, if we are honest 
with ourselves about it, in terms of delays that we incurred 
and so on. We do have a management structure problem with 
Boeing and Sikorsky now. We brought both of those CEOs in and 
sat them down. We think we have solved that problem.
    But in terms of the technology, that is a great question, 
and 2 years ago, we asked the Defense Science Board to go out 
and look at the advanced technologies that were available to us 
and come back and give us some sense of whether we really are 
doing something here that is not realistic, or are we grounded 
in technology that is truly going to help us? What is out 
there?
    Their report to us was very encouraging. In the lethality 
area, dealing with kinetic energy, with two and three times 
lethality that we currently have, we can dramatically reduce 
the weight of our systems, cut it by more than half for sure, 
by reducing the weight that is associated mainly with 
survivability, using advanced ceramics. Some of the programs 
are classified and we cannot discuss them, but it deals with 
low observable technology and stealth.
    We are very encouraged by those technologies. Also we, like 
others, wanted to move away from fossil fuel. The technology 
will not permit us to do that, not in the next 10 years or so. 
But we can go to hybrid-electric systems that are clearly out 
there and being used in other places very successfully, but not 
all that much by the military. We are excited by the prospects 
of doing that as well.
    So in terms of technology indicators, we keep very close 
contact with this. We will make a technology decision in June 
of 2003, which will be a key decision point for us that Les 
Brownlee was referring to.
    In June of 2003, we will make this technology decision as 
to whether we can proceed on the schedule that we have outlined 
to you, and that will take place in June. It will be based 
primarily on the available technologies and our capacity to 
bring them into the Objective Force on a timeline that we think 
we can.
    Senator Santorum. Yes. Thanks.
    Secretary Brownlee. Might I add to that, Senator?
    Senator Santorum. Okay.
    Secretary Brownlee.That decision Jack referred to, which 
would be a decision to proceed to the next step of systems 
development, the decision maker in that case is actually the 
Under Secretary of Defense for Acquisition, Mr. Aldridge, who 
is the final decision authority.
    Senator Santorum. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you.
    Senator Inhofe, you have been very gracious and tolerant.
    Senator Inhofe. I have learned a lesson too, you see. 
[Laughter.]
    Thank you, Mr. Chairman.
    Let me just approach this whole subject from a different 
perspective. I am just one member of the United States Senate, 
and I look at some of the programs and the systems that are in 
the United States Army, and I think the Army has gotten the 
short end of it.
    I could announce to you right now, as I did in my office 
yesterday, that another Army veteran and myself are going to 
form the Army Caucus. We are going to try to focus a little bit 
more on what the Army is doing, about what they have and what 
they do not have.
    I can remember when we were going through this same 
discussion about a side-by-side competition with the IAV and 
the M113. So I decided since I could not seem to get any 
consistency in the reports I was reading, to go out and do my 
own side-by-side competition.
    So I went to Fort Lewis, Washington. Mr. Chairman, I did my 
own side-by-side comparison. Now, they did not have an IAV. 
They had an LAV-3, which is the Canadian version, which I 
believe is essentially the same thing. It was the closest thing 
we had at that time.
    So I spent that time and came back thinking it just did not 
seem reasonable to me that we would be sending our kids out 
there with something that was not as good as the potential 
adversaries had. I would say the same thing about the Crusader.
    There are right now five countries that are building 
artillery pieces that are better than the Palladin, in terms of 
rapid fire, rate of fire, and range. Yet, the Crusader has been 
under attack for years now.
    We have something out there--everyone I have talked to in 
the Army said ``We have to have the Crusader.'' Here they are 
out there right now with the Palladin, which is inferior in 
most ways to what the competition had.
    I took the time a couple of weeks ago to go to Germany and 
get a comparison with the PZH2000 so I could see how that 
compares to the Crusader. The Crusader is better.
    We have to have something that is better. So they said, 
``Well, it is going to have to be lighter.'' So what do we do? 
We cut it down from 60 tons to 40 tons.
    It is lighter now. It does the job that needs to be done. 
Now, we are in this very complicated discussion as to: What is 
Interim Force? What is Objective Force?
    I do not care if the Objective Force does end up as a 
modernized Interim Force. I just want to be sure that as we are 
going along--here we are in war, and we have equipment that is 
not as good as the opposition has.
    Now, I would like to ask both of you your opinions--and let 
us just stay with, for a minute, the Crusader. What would have 
been different so far in Afghanistan and what we are doing in 
Afghanistan and planning to do in Afghanistan if we had had the 
Crusader?
    General Keane. Well, that is a good question. What we could 
do if we had the Crusader, particularly in this last fight 
where we employed conventional forces south of Gardez, with the 
Crusader you can put two of them in a C-17, so we could 
obviously bring them into Kandahar and then transit them up 
also to Bagram, probably three or four of them, drive them down 
the road with security to Gardez, all of which was secure. We 
had no difficulty moving ground forces down there. Gardez was 
relatively secure, and it is a flat area.
    We could have used Crusader in support of our troops who 
were attacking in the mountains and get responsive artillery 
fire with that degree of precision at considerable range and 
distance that we cannot do with any of our other systems.
    The other systems we had to get considerably closer to the 
mountains than what we can today, and we would have had more 
forces to protect them.
    The problem up in the mountains also is that when you are 
fighting at 8,000 to 10,000 feet, the amount of weight that you 
can carry on the aircraft, trying to move artillery pieces, is 
a challenge. So the weapon of choice in those mountains are 120 
mm mortars, 81 mm mortars, and 60 mm mortars.
    But we could have kept the Crusader, with that kind of 
range that it has, outside of the immediate battle area in a 
secure area and it could still range it. I mean, the truth is 
we can put it on the Beltway out here and it can hit between 
homeplate and the pitcher's mound in Camden Yards.
    Senator Inhofe. Yes.
    General Keane. The range of the system is pretty 
significant as well as its accuracy.
    Senator Inhofe. I know it is difficult to quantify risk, 
but would it have a fairly dramatic effect on what you had 
perceived to be the risk that was out there if we had had that 
piece of equipment?
    General Keane. Well, we had to use our Apache helicopters a 
lot more to provide close air support for our ground forces, 
particularly in that fight I was just telling you about that 
that youngster was in.
    Senator Inhofe. Yes.
    General Keane. That is a tough, rugged airplane, and thank 
God that it is.
    Senator Inhofe. Go ahead, Secretary Brownlee.
    Secretary Brownlee. I just might add one point, sir. I 
think Jack has covered it very well, except one point, and that 
is that there were cases due to weather when the aircraft were 
limited in what they could do. But artillery is not limited by 
weather.
    Senator Inhofe. That is right. Yes. That is right. In fact, 
as I recall from our previous conversations, it was about 50 
percent, was it not?
    Secretary Brownlee. It was 50 percent of the time in this 
last battle that we had challenges with close air support and 
weather impeding on the capacity to bring close air support to 
ground troops, correct.
    Senator Inhofe. Yes. I guess what I am saying--and both of 
you in your opening statements talked about, you know, the 
quality of our troops and the commitment that they have.
    I went there 3 weeks ago, I guess. I was at nine different 
training facilities in both the Balkans and in Europe, went to 
Landstuhl, talked to all of them that were there. You talk 
about Walter Reed, but the ones--before they got to Walter 
Reed, they were there.
    Without exception, each one of them--and some of them had 
gone down in that helicopter--said that they were anxious to 
get back to their unit. They all said they are going to make a 
career. All of them, every one of them.
    Now, you look at those guys and gals that are out there 
doing that and it is inconceivable to me that when they go into 
a combat environment, they do not have the very best with them. 
That is the reason I bring this up.
    I think, Mr. Chairman, it is going to have to cost more if 
we have that commitment that we are going to send them out with 
the best. This is not just the Army. The same thing is 
happening in the Air Force right now. We have potential 
adversaries that have better air-to-air and air-to-ground 
capability than we have with the F-15 and the F-16.
    So we are going through problems as we develop new 
platforms, the same ones we went through with the C-17. Now, 
look how it is proving itself. So I have strong feelings that 
we need to give them the very best that they have, and I know 
everyone on this committee feels the same way. Frankly, I think 
it is going to cost more.
    Let me just take one other subject----
    Senator Lieberman. More than happy to let you.
    Senator Inhofe.--because--and this is more of a readiness 
issue, but still I think it is pertinent to this hearing.
    Last year at a similar hearing, I asked General Kernan a 
question about end strength of the Army, and General Shinseki 
had just been quoted in a newspaper article stating that ``The 
Army could use another 40,000 troops in order to accomplish the 
current mission in profile.''
    Well, we are talking about an escalation in the number of 
missions. Our deployments, instead of an average of one every 4 
years, have been, what, one every 14 weeks or something like 
that.
    What I have observed out there is the toll it is taking on 
our Guard and Reserve, and knowing full well that they cannot 
continue. It is not a lack of patriotism. It is not a lack of 
desire, but they cannot do it and hold onto their jobs. The 
very nature of the Reserve component is that they are to be 
called in the case of an all-out war.
    I would like to hear you respond to what I consider to be a 
real serious end-strength problem in the United States Army and 
how it is affecting the Reserve component. Do you have any 
comments to make on that?
    Secretary Brownlee. Well, Senator, first of all, in 
addressing that, I ran into the same situations you did. 
Obviously when I was out, going from place to place here and I 
went to about 10 locations in 11 days, I found Reserve 
components in places that I never dreamed they would be 
serving.
    The first thing I would want to say is how very lucky we 
are that we have these kinds of citizen soldiers and the 
employers that they have who support them in what they are 
doing.
    Now, you make the point of asking how long can that go on? 
I think there is a limit to it, but I did find some young 
soldiers out there, Reserves and National Guard, whose 
employers were paying their full salaries while they were 
deployed on duty or who were at least making up the difference 
between their military pay and the pay they would have been 
receiving at home. So----
    Senator Inhofe. But that is right now.
    Secretary Brownlee. Yes, sir. Yes. That is what I am 
saying. I think that there is a limit to that. Sooner or later, 
just because of bottom line and businesses are in business to 
make money, there is a limit to that. I think we will be facing 
that. I do not know when, but certainly at some time in the 
future.
    Senator, the end strength problem is, of course, a very 
difficult one. Some of the solutions that have been talked 
about would be to try to get us out of some of the commitments 
that the Army has. Nobody has been able to do that.
    All I can say is the Army is stretched very thin, and 
almost everywhere I went I found the 10th Mountain Division and 
I know they also had a battalion in the Sinai.
    Senator Inhofe. Yes. Since 1990, the Persian Gulf War, the 
Army has been cut by more than 34 percent and they are 
undergoing a 300 percent increase in mission rates, and so, it 
is just something I would like to get into the record at any 
committee hearing that we have.
    Mr. Chairman, I am sorry to get off into another subject, 
but it is one that I think is very significant.
    Senator Lieberman. No problem.
    Secretary Brownlee. Could I add one thing to that, Senator, 
because I think it is important when you start talking about 
the Army's strength and force structure and sometimes we do 
focus on end-strength, but I guess one of the lessons I hope we 
have learned from the war in Afghanistan is that the Army is 
pretty thin, as you indicated, but it does have a set of 
capabilities.
    It has an Airborne division. It has an Air Assault 
division. It has a light division. Then it has heavy forces. It 
also has the special operating forces, which consists of 
Rangers. It consists of Delta Force. It consists of special 
forces, who can do direct action, who can do strategic 
intelligence, and also the unconventional warfare capability to 
go behind the lines and work with indigenous forces.
    Now, quite honestly, that capability had not been used by 
the Army or the special forces for several years. There are 
always people around town, in think-tanks and otherwise, who 
speculate about going into the Army's force structure to pay 
for other bills.
    Some of them use what I call the cleaning-out-your-closet 
method of force structuring, ``If you have not used it in 2 
years, get rid of it.'' These kinds of capabilities cannot be 
recreated in weeks or months. They take years.
    We found, when we got on the ground in Afghanistan, the 
indispensable element was the Army's special forces 
unconventional warfare capability to go behind the lines and 
work with these indigenous forces in the sense of the vignette 
General Keane described. Their ability to do that is what 
enabled the success in that war.
    So I only make the point that the force structure is 
important, the end-strength is important, the capabilities that 
the Army has--we have to have this broad range of capabilities, 
because as General Eisenhower said, ``We do not know where we 
are going next, but it will probably be in a place, under 
conditions for which we are not prepared.''
    Senator Lieberman. Thank you, Senator Inhofe.
    Secretary Brownlee, you sort of took me off the train on 
which I was going to go with my next series of questions, but I 
cannot resist asking you, having heard this answer, whether the 
Army intends to convert completely to the Objective Force in 
the future or whether there will still be roles for special 
operations and Airborne, Air Assault, and light infantry forces 
in the transformed Army.
    General Keane. Yes. That is a great question, Senator. I 
think our thoughts will probably evolve over time as well. But 
our current thoughts are that the role for special operations 
forces will continue in the future.
    We are certainly going to keep those forces as modern and 
as enhanced as we possibly can. We are looking at some end-
strength increases for those forces based on the demand and 
needs for them.
    Second, in terms of airborne and parachute forces, we still 
see a need to have that capability. That is our forced entry 
capability to seize a piece of ground or terrain that you need 
at very long strategic distances and be able to achieve at 
least operational and tactical surprise in doing that. So we 
will continue to maintain Ranger forces and parachute forces to 
do that.
    Our thinking right now dealing with the Air Assault 
division is to keep it in its current configuration. However, 
as we evolve over time, we think we are going to do more 
vertical envelopment in the United States Army, not less.
    How we evolve in terms of vertical envelopment in the Army 
remains to be seen. So we will have some future decisions to 
make in reference to that. But those unique capabilities that 
you describe right now we intend to keep in the force.
    Senator Lieberman. So the transformation to the Objective 
Force will not mean that the Army will be totally the Objective 
Force or only the Objective Force?
    General Keane. That is correct. We think those forces that 
I just described obviously will be enhanced to a degree that 
they will also have C\4\ISR capabilities and do network-centric 
warfare and operate considerably more dispersed than they 
currently have the opportunity to do.
    So all of the attributes that we value in the Objective 
Force we will try to embed in those forces as well. Except for 
the special operations forces, because they are so unique 
themselves.
    Senator Lieberman. Right. Let me raise a few of the 
questions with you directly that I asked in my opening 
statement.
    I am sure it is obvious from our point of view of accepting 
and embracing the vision that you had in the Army of the 
Objective Force and trying to play a role as advocates, if you 
will, and to ask why some of those tough decisions--these are 
all tough decisions, and they are not being made, which would 
free up more resources to fully fund the Objective Force and 
move to it more rapidly.
    You began to talk a little bit about this, General Keane, a 
little bit earlier, but not in terms of the numbers. You talked 
about the recommendation of the Interim Brigade Combat Teams, 
the obligation or responsibility to National Command Authority 
to give this kind of capacity before we got to the Objective 
Force.
    My question is: Do we really need six, particularly since 
we have moved the Objective Force date up closer and that is a 
bold and constructive move? Why not field fewer than six of the 
IBCTs to free up resources for the future combat systems, or 
even for aviation priorities?
    General Keane. That is a good question, Senator. I was 
trying to answer it before. Let me see if I can do a little 
better job with it.
    The number six was derived from the warfighting 
requirements we believe we have and also the rotation base 
requirements, the war fighting requirements to respond to MTWs 
or also small scale contingencies that require immediate war 
fighting. But we also know we do other kinds of operations.
    In the Army, we pay a disproportionate bill for stability 
operations post-conflict. I mean, we are 55 years in Europe. We 
are 50 years in Korea. We are 16 years still in Honduras, of 
all places. We are down in the Sinai some 19 years, and 11 
years in Southwest Asia, and the list goes on, 6 years in 
Bosnia and close to 3 years now in Kosovo.
    So we are painfully aware of post-conflict operations as it 
impacts on the Army, and our tendency to stay for a number of 
years. So we must maintain a rotational base to be able to do 
that.
    We also know that the IBCTs will be ideal forces to put 
into some of these contingencies that we are doing in the post-
conflict stage, as they are in the conflict stage. To do that 
in peacetime, we have to have a rotation base, if we expect the 
follow-on force to have the same capability as that one does. 
So that contributed to it.
    There are two other factors. One is we also felt the 
National Guard should play a role in this, that they should be 
a part of transformation. We are committed to them not just in 
the Interim Force, but also in the Objective Force. So we 
wanted to bring them into the picture as well.
    Then the last issue dealt with--the sixth one in a sense--
is that we are really cleaning up old business here. We have a 
cavalry regiment that is assigned to the 18th Airborne Corps, 
the Second Armored Cavalry Regiment. It has been improperly 
organized, improperly designed and equipped for a number of 
years, ever since it used to be a heavy armored cavalry 
regiment and we made it a light cavalry regiment.
    Essentially, all it has in it are Humvee TOW missiles with 
which to fight. That is not an assault capability. It has been 
a pregnant problem for us for years.
    We are using the IBCT concept to design an organization 
with the equipment in the IBCT and form something we describe 
as the Interim Cavalry Regiment. That is the sixth one of these 
as well. It will look a little different, but all the equipment 
strategies will be the same.
    That will give the 18th Airborne Corps the capability that 
they truly need, that we have been depriving them of for a 
number of years. That is how we settled on the number six.
    Senator Lieberman. Okay. So the bottom line in balancing 
the risk, in what I know is your desire to get to the Objective 
Force, you do not feel you can cut that below the six IBCTs?
    General Keane. No, we do not, not to meet the operational 
shortfall and to be able to give the National Command Authority 
the options we believe they should have.
    Senator Lieberman. Let me ask the other question. Why would 
it not make more sense to limit modernization to fewer than the 
three and a third divisions in the counter-attack corps, and, 
again, take that money and fully fund the Objective Force? 
Either one of you.
    Secretary Brownlee. Jack, go ahead.
    General Keane. Well, first of all, that is the counter-
attack corps, as you well know, and that was a major decision 
that we made. We are obviously taking some risk by not 
recapitalizing some of the equipment that would go to the other 
forces in the Army.
    Senator Lieberman. Right.
    General Keane. But with the strategy of the Objective Force 
and when it comes on, we believe that we are maintaining a 
strategic hedge, and therefore an acceptable risk by recapping 
that counter-attack corps and selectively modernizing the 
equipment. We have gone through all of the equipment strategies 
to do that.
    The three and a third divisions, the third is the armored 
cavalry regiment for the corps, will maintain a hedge for us up 
until 2024 when that organization also goes into the Objective 
Force.
    We think it is reasonable that we are doing it. It was one 
of the tougher decisions that we had to make, and it is 
frustrating, because there is always tension around these 
decisions.
    On the one hand, we get criticized for maintaining too much 
of our Legacy Force. People do not recognize what we are doing 
to it, and the risk that we are accepting with that Legacy 
Force, that the selective recapitalization only applies to 
about 30 percent of it.
    Senator Lieberman. Sure. Thanks, General. My time is up on 
this round.
    Senator Santorum.
    Senator Santorum. I just want to follow up an what Senator 
Lieberman was saying. I would take the other side of that 
question, which is I think a question I have asked in the past. 
Maybe I do not remember the answer, but if you give me such a 
good answer this time, I will remember it.
    What happens to the other six and two-thirds that, as we 
move forward with the Objective Force, and we move forward with 
digitization, as we move forward with upgrades, who would 
basically just get left behind? What relevance do they have to 
your capability to do your mission?
    General Keane. Well, I think that is where the risk is that 
we are accepting--we are saying to ourselves that the strategic 
hedge will be one of the last forces to transform to the 
Objective Force. It is not 2024, by the way. It is 2020. So I 
was mistaken in that.
    The IBCTs at some point will transform as well. The 
planning figure for that is 2028. So the issue for us then is: 
With those organizations, can we accept the risk in the near 
term, while we are waiting for the Objective Force to begin to 
arrive in 2010?
    Senator Santorum. My question is: What is the relevance of 
those forces now? Going forward, what is the relevance of all 
of these forces that are not being recapitalized?
    General Keane. If the issue is ``Are they trained and ready 
to fight,'' the answer is yes. If we had to get involved in 
conflicts larger than what we are currently involved in, I 
think you would see those forces being employed and doing very 
well against the threat that is out there.
    Secretary Brownlee. Senator, we have equipment, pre-
positioned and afloat. If, in fact, heavy divisions had to fall 
in on that equipment, some of those divisions might be the 
first ones to fall in on that equipment. The counter-attack 
corps would come behind them with its own more digitized modern 
equipment.
    But they might be the first forces to fall in on that 
equipment, because it will not be digitized and have the kind 
of capabilities that the counter-attack corps will have. So 
they would be very relevant in that fight. In fact, they might 
be the first forces on the ground.
    Senator Santorum. Okay. A question about UFRs, and the 
close to $10 billion on your UFR list. You have killed, going 
through my papers here--how many programs is it? Eleven 
programs, I guess, with seven programs in the FYDP.
    My question is: Are there any programs which are 
terminating that are also on the UFR list? Are there any 
programs that you have terminated that you changed the 
requirements so they are not on the UFR list?
    General Keane. No. The answer to that is that the programs 
we killed or terminated--and some obviously, we restructured--
our plan is to not come back and make a request of you in the 
following year to initiate that as an unfunded requirement, so 
they are not on the UFR list.
    Secretary Brownlee. Senator, could I add one thing here? 
While it is not the same program, there are capabilities that 
we clearly need in the aircraft survivability equipment area, 
and we have asked for additional funds to do more in that area.
    The program that we terminated is terminated. But actually, 
it is not. The special operations forces are going to buy a 
little bit out of it before it is terminated, through the end 
of the year. The Army is going to continue to manage that.
    But recognizing that we still need to modernize our 
aircraft survivability equipment, the money that you see 
requested in that UFR, I understand, is----
    Senator Santorum. Is for a different program or for----
    Secretary Brownlee. Well, it is to pursue whatever 
capabilities we can.
    Senator Santorum. Something. Obviously with what is going 
on, what we have seen is the vulnerability that we have, which, 
obviously, seems to be something we need to be pursuing.
    Secretary Brownlee. Yes, sir. We want to be careful here, 
in that the aircraft that were hit in Afghanistan were hit by 
small arms and rocket propelled grenades (RPGs) primarily, not 
by any of the kind of sophisticated systems that these kinds of 
aircraft survivability equipment would defend against.
    The facts are that in that program, the Army was in an 
aircraft survivability equipment. It was a joint program. 
Technical difficulties arose. The Navy and the Air Force pulled 
out of the program. It left the Army with the cost of the 
system being doubled for the Army. It went from $1.4 million to 
$2.4 million. So the Army simply could not afford that alone. 
That is per system.
    So the Army is now going to, if they can come up with any 
additional money, they would pursue other alternatives. They 
have a little money to do that, but this would allow a more 
robust effort. I believe that is true.
    General Keane. That is true. There is----
    Senator Santorum. Is that a request to us?
    Secretary Brownlee. It is on the UFR, sir.
    Senator Santorum. Right. But is that----
    General Keane. Aircraft survivability is very important to 
us, obviously. There was the fact that there were material and 
design problems with that program that led us to back away from 
it. The other two services have, as well.
    I will say to you in fairness to it, though, that they 
appear to be making some progress with it. So we are going to 
be taking another look at it when we start building our 2004--
--
    Senator Santorum. The old program or a new system, or----
    General Keane. It is the new program that we terminated. It 
appears that they may be solving some of the technical 
solutions and material problems that they were having with that 
program. It was called Advanced Threat Infrared Countermeasures 
(ATIRCM).
    If that, in fact, is the case, we may be taking another 
look at it as we go into the next budget cycle. To do that, I 
think that to be frank about it, we will have to get our sister 
services involved on here to get the bill down as well, and get 
them back into it and get interested in it. If the solutions 
are there, they will be interested.
    Senator Santorum. Okay. There are two people here who are 
very interested in Comanche. Why do you not just, if you can, 
give us sort of an update of where we are on that program? Then 
I will sort of pick at you from there.
    Secretary Brownlee. Senator, the Comanche program is one 
that, as you know, has a long history. Some of it is very 
troubled. The program got in trouble and Congress took some 
money out, and the Army took some money out. It has a long 
history of trouble.
    I know that it has the Secretary's and the Chief's 
attention, and it certainly has the Vice Chief's and my own, as 
well as our new acquisition executive, Claude Bolton. We have 
all conferred on this program and we have some very intense 
work going on right now in that program.
    There are some decisions to be made in the next few months 
that I think are critical to that program. Some of the troubles 
that it has had are self-induced by the Army. Some of them are 
contractor problems. Some of them are things like software 
development.
    But I believe the Army is going to make some key decisions 
on that aircraft over the next several months. When we have 
some of those things worked out, we will certainly be up here 
to discuss it with you.
    Senator Lieberman. Well, let me follow up. Obviously, I 
appreciate----
    Senator Santorum. I am not too sure that told me a whole 
lot. [Laughter.]
    Can you be a little clearer as to what----
    Secretary Brownlee. Senator, one of the problems with the 
system is that we are looking at some alternatives, and one of 
those may be a block fielding approach, as I discussed earlier. 
The original Comanche was intended to be a scout reconnaissance 
helicopter.
    When the Army decided to make it a scout attack helicopter, 
that meant that we were going to put a Longbow radar on it, and 
hang Hellfire missiles on it. That has created some 
capabilities so that the vertical rate of climb of that 
helicopter, because of the power/weight ratio--this is 
primarily a weight problem now--is on the margin.
    We have had some discussions about the desirability of 
fielding a helicopter with an engine that is already on the 
margin. So if I went further than that, I would be going 
further than what we have really decided to do here. But I can 
only tell you that these are the kinds of evaluations that are 
being made.
    We are going to work, of course, closely with the 
contractor, and with the people in Congress up here. But I do 
believe that this is the year of decision for Comanche. It is 
possible that with a block fielding approach, at least the 
first versions of this may only be scout reconnaissance.
    Senator Santorum. As a reconnaissance helicopter only?
    Secretary Brownlee. Yes, sir.
    Senator Lieberman. What does ``block fielding'' mean here?
    Secretary Brownlee. I am sorry, sir?
    Senator Lieberman. Explain ``block fielding.''
    Secretary Brownlee. Block fielding means that the threshold 
capability, the first sets of helicopters we would produce and 
begin to test and maybe even deploy, would not have the full-up 
capability. So if you had a helicopter and the first ones you 
deployed were only scout reconnaissance helicopters, and then 
later you solved the weight problem, then you could go back and 
retrofit those and make the future models more capable. Perhaps 
they could have the added capabilities of scout/attack. But we 
are looking right now at alternatives of how to do that that 
would be acceptable.
    Senator Lieberman. Okay. Let me ask--and I think the 
question is still relevant. There is the $1.7 billion 
shortfall, and I know that the Army put more money into this 
fiscal year 2003 budget, $159 million to address part of the 
shortfall. The other part of the proposal is to increase the 
production rate by about 50 percent from 62 to 96 a year.
    Can either of you talk a little bit about that, and whether 
you think that is feasible to accomplish?
    Secretary Brownlee. I think the increase in production rate 
would not occur until 2007 or sometime around that. In my view, 
Senator, that presumes that we solve the problems I just 
described.
    Senator Lieberman. General Keane, do you want to add 
anything to that?
    General Keane. Well, we have the money in a program we 
believe we should have. The 96 production rate is only 
something we want to go to because of the significant savings 
that are involved and the production rate, because it just 
makes sense to us.
    We are not at that decision yet. But that is clearly where 
we are heading, and I think some of the other decisions we have 
to make about this program would also shape that decision. So 
we have a few more months before we get to that point.
    Senator Lieberman. Okay.
    General Keane. I do not want anyone to misunderstand that 
the Army is very committed to the Comanche program. We are not 
backing away from it one iota here. What we are committed to is 
making certain that we solve some of the challenges that are in 
that program.
    Senator Lieberman. So you might put it up initially with 
less than the fully desired capabilities. Is that what I am 
hearing?
    General Keane. Well, it would have the capabilities that 
the Comanche program always started out with.
    Senator Lieberman. Right. Which we----
    General Keane. Be an armed reconnaissance helicopter, which 
is very achievable.
    Senator Lieberman. Right.
    General Keane. Then what we started doing is what we have 
been doing for many, many years, starting to ask more of that 
system.
    Senator Lieberman. Can it do more, yes?
    General Keane. We were doing that obviously--looking at it 
in terms of that being a multi-functional helicopter, which 
would create some savings for us down the road if it could do 
two functions at once. So it was economy that got us into 
looking at that realistically. That thought, while initially 
entertaining and attractive to us, under closer scrutiny is 
going to cause us some trouble. We have to eventually make a 
tough decision here.
    Senator Lieberman. But you are also saying obviously that 
that does not diminish the priority that the Army puts on the 
armed reconnaissance function?
    General Keane. Absolutely not. I am not----
    Secretary Brownlee. No, sir. It is essential. That kind of 
capability is essential to the Objective Force.
    Senator Lieberman. To the Objective Force. Okay.
    Let me ask about the Crusader, which we talked about 
briefly. Do you see it now as part of the Legacy Force, the 
Interim Force, the Objective Force or in some sense all three?
    General Keane. Well, I think that is a great question. 
Crusader has been a real challenge for us. It became, early on, 
the poster child for what was wrong with the Cold War Army and 
much of it has been misrepresented ever since.
    To be frank with you, Senator, when I joined the Department 
here, I had many of the perceptions that others have had 
outside the Army. We put it on the chopping block to take a 
look and see if we could cut it so we could do transformation 
sort of things with it.
    When I examined the requirements of where we were in 
artillery and what we needed on the battlefield, it was 
blatantly obvious that we needed the capability. So we 
restructured it and we brought it down and cut the program in 
half so it supports the counter-attack corps and also forces in 
Korea.
    Then I think we made another mistake with it, to be frank, 
because we started billing it as a Legacy Force system, when 
clearly it has such advanced technology in that turret that I 
am convinced that that turret and its capabilities, which are 
almost robotic, there will be a two-man crew in there. But it 
is more like an aviation cockpit than an artillery turret in 
terms of its capabilities.
    That turret has advanced technologies and it will bridge us 
to the Objective Force. I am absolutely convinced of it, that 
there are much of the turret qualities we will find in an FCS 
gun system of the future. That is step one.
    The second thing is that, in responding to Senator Inhofe's 
question, once Crusader is in the Army inventories and given 
its rapid rate of fire and its precision and the range it fires 
at, I cannot imagine us being in any conflict where we would 
not throw a number of those things on C-17s and take them to 
war with us to support the Interim Force, to support Legacy 
Forces, regardless of type, whether they are heavy forces or 
light forces, or initially even to support the Objective Force 
as we are waiting to get more of the FCS gun systems into the 
inventory.
    So I think it will be with us and supporting all three of 
those forces as we transition the Army. It was a mistake on our 
part, I think, to not be clear about that and unsort our own 
jargon on this issue.
    Senator Lieberman. This tempts me--and I will go forward, 
yielding to temptation, to ask you a provocative question, but 
I do it only to get what I know will be your brilliant and 
eloquent answer on the record.
    There are some who might say that precision guided missiles 
fired from the air have been so brilliantly successful in 
Afghanistan, Operation Enduring Freedom, for instance, that we 
do not need sophisticated artillery like Crusader anymore.
    General Keane. That is true. We have heard it ourselves and 
there has been enormous progress with precision weapons, just 
in the ensuing 4 years since Kosovo. We can now put joint-
direct attack munitions (JDAMs) on virtually every type of 
strike aircraft, versus only one that we did 4 years ago, so it 
is a tremendous advance.
    The other thing is that in Desert Storm, precision 
munitions accounted for less than 14 percent of the bombs that 
we dropped. Today, it is probably 80-plus percent.
    All that aside, the fact of the matter is that when troops 
are in close contact with the enemy, to be able to support 
troops in contact with the enemy you need immediately 
responsive fires, and the direct fire nets that we have with 
artillery provides us that responsive fire.
    We need it regardless of weather. We cannot wait. A half 
hour could be an interminable amount of time to a force that is 
engaged with a much larger force and that needs artillery 
support.
    So the qualities of a ground force are always tied to 
artillery systems and those artillery systems will take the 
form of tube artillery and also rocket munitions for 
responsiveness. They are just integral to a ground force's 
capacity to fight.
    Senator Lieberman. Your answer was as convincing as I knew 
it would be. Thank you, General. My time is up.
    Senator Santorum. Thank you. I just want to----
    Secretary Brownlee. Could I just make one point on that, 
Senator?
    Senator Lieberman. Please.
    Secretary Brownlee. It is true that the precision guided 
munitions did a terrific job over there. I think one has to 
point out that there were not formidable air defenses there and 
had there been, it might have changed the picture somewhat. The 
artillery is unaffected by that.
    Senator Lieberman. Thanks.
    Senator Santorum. Since we are on Afghanistan, let me just 
follow up with a question on lessons learned from Afghanistan 
and how they apply to the Interim Brigade. Can you envision how 
you would utilize this new force that you want to create in 
what seems to be an environment that may very well be the 
future threat that faces us and the Army?
    Secretary Brownlee. I think I will let Jack address it, but 
I do want to go back to something I said earlier. As far as a 
lesson learned from Afghanistan, again, I would indicate that a 
lot of people, as I said, had already started to look at the 
Army's unconventional warfare capability as not needed anymore, 
because we had not used it for a few years.
    When it became the indispensable element on the ground, it 
was fortunate we had this proxy Army, these indigenous forces 
on the ground, but that is when the air strikes became 
effective. When they were able to move and the special forces 
with them synchronized their movements with the air strikes, 
that is when the air strikes began to be effective. As Jack has 
said in meetings I have been in before, it caused the Taliban 
and al Qaeda forces to have to mass to cope with these ground 
forces. When they did that, then they became susceptible to the 
air strikes.
    Well, before we got the special operating forces on the 
ground operating in that mode, the air strikes were not nearly 
as effective, nor did we have the success on the ground that we 
had when the movement of troops on the ground and the air 
strikes were synchronized. This all happened because the 
capability of the Army was retained. Thank God, it was 
retained.
    General Keane. I would add to that by saying, you know, we 
have to stop beating ourselves up about lack of jointness. The 
reality of this war was the uncommon goodness of jointness and 
the integration of our capabilities. So we really, as a 
military, should start taking some credit for this now.
    We have turned the corner in a lot of our integration of 
capability. Certainly noteworthy, as Les pointed out, was the 
integration of special operations and conventional Army forces 
and air power, a pretty remarkable achievement, and 
particularly when you think that we were introducing special 
operations forces to essentially strangers on the battlefield. 
Within a matter of days, they built up trust and were able to 
synchronize and coordinate their activities throughout all of 
northern Afghanistan. That was a remarkable achievement.
    This business of ground forces is a fascinating discussion 
and it is one that is much misunderstood. Kosovo, I think, led 
to a lot of the misunderstanding because, Milosevic, clearly 
when he calculated the expulsion of the Albanians, and he moved 
about a 40,000-man army in there to do that, knew that response 
would probably get precision strike against his forces.
    While he used mass to move out the Albanians, he quickly 
reorganized those forces and distributed those forces in and 
among the people and used advanced camouflage techniques to 
hide from what he knew was inevitable precision strike 
operations.
    What is very different in Kosovo as compared to Afghanistan 
is: He was very successful in doing that. The reason why he was 
successful in doing that is there was no ground force there to 
force his ground force to mass to protect the things that they 
value. That would have required a ground force presence, 
whether it was the KLA, who was not capable of doing it, or a 
coalition ground force which would have forced those forces out 
of those cities and out of those ridge lines that he was hiding 
in to mass.
    At that point, that force can be fixed by another ground 
force and becomes very vulnerable to air power, and would be 
summarily destroyed. That is what happened to the Taliban so 
quickly. It is a lesson that people clearly do not understand 
at times.
    In terms of the IBCT, I think, if we had the IBCT force, we 
clearly would deploy it. I think it would be ideally suited to 
operate in Afghanistan, in all of the terrain that is in 
Afghanistan, even in the mountainous terrain, because of the 
presence of foot infantry that is in that force, and our clear 
understanding that that force would be augmented with 
helicopters, that we could move that infantry around in those 
mountains.
    So the IBCTs will be a very versatile force for us, 
operating in different types of terrain and operating very 
dispersed on the battle field, which Afghanistan clearly is. 
Thank you for the question.
    Senator Santorum. You are welcome. Regarding the Chinook, 
we have a problem with a Nunn-McCurdy breach. How do you plan 
to address that?
    Secretary Brownlee. Senator, the Army is also committed to 
the program. There was some contractor price increases that 
really caused that. This program is critical, the CH-47F. There 
simply are not any alternatives in the near term. While we have 
taken some losses, is because we have used it so extensively in 
Afghanistan.
    It has truly been a workhorse there and some of the things 
that have occurred with the Chinook, which Jack could probably 
describe in much more detail than I, have almost been 
miraculous--some of the ones that have flown out of difficulty 
and flown after taking hits and things like that. This is a 
good airplane that we need to upgrade and continue to buy.
    Senator Santorum. Well, how are you going to address the 
breach and is the breach going to have the impact on the----
    Secretary Brownlee. Have what, sir?
    Senator Santorum. What impact will it have on the low-rate 
production?
    Secretary Brownlee. I do not know yet, sir. I know that we 
are in discussions with the office of the Secretary of Defense 
(OSD) about it, and we are going to have to negotiate with the 
contractor, but we are going to have to proceed with the 
program, I believe. I know there was this breach and it has to 
be reported and we are doing that. But there have been other 
programs with these kinds of breaches that survived, and I 
believe this one will.
    General Keane. We do not see it as a major issue, Senator. 
March 19 is our notification date to Congress on the Nunn-
McCurdy breach. It is due mostly to labor rates and we will be 
continuing with that program as planned.
    Senator Santorum. Thank you.
    Senator Lieberman. Thanks. This has been a very productive 
afternoon. It strikes me that I should say what I suppose is 
self evident and--it has been said elsewhere--that we are 
extremely grateful for the service that the Army has given in 
Operation Enduring Freedom. On this committee, we say that we 
are very proud of it.
    Thank you for an important and very constructive discussion 
here this afternoon. You are both very well informed and 
responsive and we want to continue to work with you through 
this subcommittee to help you, as best we can, to achieve what 
you want to achieve and all we are asking you to achieve with a 
limited number of dollars, large though they are, nonetheless 
limited. So I appreciate it very much and we look forward to 
continuing the dialogue.
    The hearing is adjourned.
    General Keane. Thank you for what you do for our soldiers, 
sir. We appreciate it.
    Secretary Brownlee. Thank you, sir.
    Senator Lieberman. You are quite welcome. Thank you, both.
    [Questions for the record with answers supplied follow:]
 Questions Submitted by Senators Joseph I. Lieberman and Rick Santorum
          research, development, test, and evaluation funding
    1. Senators Lieberman and Santorum. Secretary Brownlee, the Army's 
fiscal year 2003 $91 billion budget request--approximately 24 percent 
of the Department of Defense (DOD) budget--represents a $9.9 billion 
increase over fiscal year 2002 levels. The Army's share of the DOD 
budget was not varied by more than 1.1 percent over the last 10 years 
using a fiscal year 1992-2003 average of 25.1 percent. The procurement 
portions of the budget has fallen from 20 percent over the last two 
decades to just under 17 percent this year. Research, development, 
test, and evaluation (RDT&E) funding has fallen from 21 percent to just 
under 13 percent in the same time period. The Army's $9.9 billion 
budget request increase includes a $1.7 billion addition to procurement 
funding, a 14 percent increase, but RDT&E accounts were reduced $134 
million compared to last year's appropriated level, and increased by 
less than 1 percent relative to last year's requested level. Despite an 
almost $10 billion increase, the Army was still required to terminate 
11 programs in fiscal year 2003 and seven programs in the Future Years 
Defense Program (FYDP). Despite submitting a $9.5 billion unfunded 
requirements (UFR) list last year and receiving a $9.9 billion increase 
this year, the Army has once again submitted a $9.5 billion UFR list.
    How will the $134 million reduction in RDT&E affect Army 
transformation--in particular, the development of the Future Combat 
System (FCS) and the Mobile Gun System-variant of the Interim Armored 
Vehicle?
    Secretary Brownlee. The $134 million reduction in RDT&E will not 
impact the Mobile Gun System-variant of the Interim Armored Vehicle.
    For the Future Combat Systems, the President's budget submission 
was delivered to Congress before the Army had received and costed 
proposals from industry for the FCS Lead Systems Integrator agreement. 
Subsequent cost estimates identified additional requirements over and 
above what we requested in the President's budget. Consequently, the 
Chief of Staff of the Army submitted a $390 million dollar unfunded 
requirement request for science and technology and system development 
and demonstration efforts to support FCS development. Because of this 
situation, the Army is assuming additional risk to attain our goal of 
fielding an FCS-equipped unit of action with threshold capability 
within this decade. Regardless, we will continue to make the tough 
decisions and tradeoffs in order to transform the Army within the 
resources made available to us.

             force structure implications of transformation
    2. Senators Lieberman and Santorum. Secretary Brownlee, because the 
Army's share of the Department of Defense's Total Obligation Authority 
varies little from year to year, how do you expect to fund the Future 
Combat Systems, Crusader, Comanche, and Interim Brigade Combat Teams 
(IBCT) when these programs all reach production in roughly the same 
time period? Do you see any force structure implications?
    Secretary Brownlee. The fiscal year 2003 budget recently submitted 
to Congress adequately funds all of the Army's known Interim and 
Objective Force Transformation requirements. First, the budget, and its 
associated FYDP, funds the procurement of six IBCTs and its associated 
equipment. Next, the Army is funding over $8 billion in the FYDP for 
science and technology, 95 percent of which is oriented on the 
Objective Force. Additionally, the Army has fully funded Comanche, 
Crusader, and Warfighter Information Network-Tactical.
    The Army's force structure is driven by assigned missions and the 
capabilities of the forces to carry out those missions. The Army 
reexamines its force structure requirements in a biennial process 
called Total Army Analysis and makes adjustments to its force structure 
to execute assigned missions. As the Army moves forward with 
transformation, it will have to make more tough funding decisions and 
where possible, seek additional funding from the Office of the 
Secretary of Defense and Congress.

             experimentation plan and future combat systems
    3. Senators Lieberman and Santorum. Secretary Brownlee, the 
Objective Force is the Army's future full spectrum force and the Army's 
top transformation priority. The Army intends to achieve Initial 
Operating Capability in fiscal year 20l0--a 2-year acceleration of the 
program. The key component of the Objective Force is the Future Combat 
Systems (FCS), a networked system-of-systems. The Army intends to make 
a decision regarding technology maturation for the FCS in fiscal year 
2003 versus fiscal year 2006. On March 8, 2002, the Army selected the 
Boeing Company and Science Applications International Corporation as 
the Lead Systems Integrator (LSI) for the concept and development phase 
of FCS. In the fiscal year 2003 budget, the Army invested 97 percent of 
its science and technology (S&T) resources toward the design and 
development of the Objective Force and enabling technologies. The 
National Defense Authorization Act for fiscal year 2002 included a 
provision which directed the Secretary of the Army to develop and 
provide resources for an experimentation program that will provide 
information as to the design for the Objective Force and a formal 
linkage of the Interim Brigade Combat Team to that effort. What is your 
current concept for Objective Force experimentation?
    Secretary Brownlee. The Army's approach for Objective Force 
experimentation is to enhance proven experimentation processes. These 
processes are closely coordinated and synchronized through the 
cooperative efforts of the U.S. Army Training and Doctrine Command 
(TRADOC), the Department of the Army, the Army Test and Evaluation 
Command, and the Program Manager's Office. The Army exploits 
operationally focused experiments to develop and refine operational and 
organizational concepts, incorporating advances across doctrine, 
training, leader development, organization, materiel, soldiers, 
installations, institutions, and infrastructure (DTLOMS-I\3\).
    Objective Force integrating centers composed of enhanced battle 
labs execute these experiments. Additionally, the remaining traditional 
battle labs provide support as the Army fully examines the cumulative 
interactions across echelons of command, DTLOMS-I\3\, battlefield 
operating systems, and Joint interoperability. These experiments can be 
broadly defined in technical, systems, and operational experimentation 
categories. Technical experimentation addresses emerging S&T to 
determine its feasibility for application in the Army over the near 
term. System experimentation looks at specific materiel solutions to an 
identified requirement and determines its feasibility as a solution. 
Operational experimentation allows the Army to look at emerging 
concepts, new organizational designs, systems, and technologies in a 
holistic manner. The Assistant Secretary of the Army (Acquisition, 
Logistics, and Technology) is primarily responsible for S&T 
experimentation. The LSI, in coordination with the Army, will be 
primarily responsible for systems experimentation, while TRADOC is 
responsible for the Army's Experimentation Campaign Plan and 
operational experimentation.
    Finally, operational testing of the Objective Force maintains two 
key linkages. First, the Interim Brigade Combat Team will serve as the 
``bridge to the Objective Force'' by providing live and simulated 
headquarters and forces for operational experiments. Second, the 
Objective Force experimentation plan is integrated into the Joint 
Forces Command's (JFCOM) concept development and experimentation 
strategy. All insights and lessons learned will be cross-walked between 
the Army and JFCOMs concept development process, and JFCOM will have 
the latest Objective Force concepts and capabilities represented in 
their major events.

    4. Senators Lieberman and Santorum. Secretary Brownlee, when can we 
expect to see this congressionally-directed experimentation plan?
    Secretary Brownlee. TRADOC is writing the Army's Experimentation 
Campaign Plan. It is currently scheduled for TRADOC internal review 
during the fourth quarter of fiscal year 2002, with Headquarters, 
Department of the Army and Joint/service staffing in the first quarter 
of fiscal year 2003. We should have a final product by the end of the 
first quarter of fiscal year 2003.

    5. Senators Lieberman and Santorum. Secretary Brownlee, what 
changes in S&T have led you to believe that there are sufficiently 
mature technologies that allow you to accelerate the Objective Force?
    Secretary Brownlee. The Army has carefully reviewed all FCS 
technology efforts and focused resources on the highest priority 
technologies that also have the greatest probability of being 
transitioned in time for the FCS Milestone B decision. The Army has 
requested $654 million in the fiscal year 2003.
    The President's budget matures and accelerates FCS, enabling 
technologies such as advanced armor and active protection, hybrid 
electric vehicle drive components, advanced sensors, and signature 
management.
    Technologies still needed, but requiring further development and 
continued investment for insertion into future versions of FCS include: 
compact kinetic energy missile; extended range precision attack missile 
and increased endurance loiter attack missile with netted inter-missile 
connectivity; advanced multi-spectral payloads for unmanned aerial 
vehicles; fully-autonomous unmanned ground vehicles; and multi-role 
cannon with extended range ammunition suite.

    6. Senators Lieberman and Santorum. Secretary, Brownlee, how will 
the $190 million shortfall in S&T and the $200 million shortfall in 
RDT&E affect the program?
    Secretary Brownlee. The $190 million shortfall in S&T and the 
additional $200 million shortfall in RDT&E for system development and 
demonstration (SDD) may limit the Army's ability to accelerate 
transformation to the Objective Force. The $190 million S&T shortfall 
in fiscal year 2003 is attributable to the decision to accelerate the 
fielding of the Objective Force this decade with first unit equipped 
(FUE) and initial operational capability (IOC) in fiscal year 2008 and 
fiscal year 2010, respectively. Advancing our transformation efforts by 
2 years resulted in calling forward various technologies. Thus, without 
the additional funding, the Army's acceleration in transformation will 
result in less than desirable capabilities due to potential delays in 
advancements for critical technologies and provide limited advancements 
in lethality, survivability, versatility, and sustainment.
    The $200 million SDD shortfall in fiscal year 2003 is based on the 
LSI's initial assessment of funding required for FCS hardware and 
software development, systems integration, test and evaluation, and 
systems and operational architecture design. Without the additional 
RDT&E funds, the program will be at risk of achieving the FUE in 2008 
and our ultimate goal of attaining the IOC in 2010. Without the FCS 
program, the Army will not have a strategically and operationally 
deployable force capable of full spectrum operations this decade.

    7. Senators Lieberman and Santorum. Secretary Brownlee, how will 
the Army manage the LSI contract?
    Secretary Brownlee. The agreement between the Defense Advanced 
Research Projects Agency (DARPA)/Army team and the LSI is not a 
conventional contract. The contract type is an Other Transactions 
Agreement Authority contract. The government will manage the LSI 
through an integrated, collaborative, integrated product team structure 
staffed by government and LSI personnel. The government will 
participate as a full partner in all make/buy and subcontractor 
competitive selection decisions. The government and LSI will implement 
and maintain an earned value management system where we require monthly 
cost and performance reports from both the LSI and appropriate 
subcontractors. We will use this mechanism to provide program, DOD, and 
congressional leadership the ability to track and manage the program at 
all levels based on metrics focused on cost, schedule, performance, and 
risk.

    8. Senators Lieberman and Santorum. Secretary Brownlee, what will 
be the LSI's role in the development of the Future Combat Systems and 
the Objective Force?
    Secretary Brownlee. The LSI is the government's partner that will 
team with our requirement and material developers to design and build 
the FCS supporting our mutual goal of fielding a FCS-equipped unit of 
action by the end of this decade. Boeing, as the LSI, will have total 
systems integration responsibility for designing, developing, 
producing, fielding, and supporting the FCS systems of systems and will 
employ best commercial practices in their performance. Specifically, 
the LSI will assist the government to develop the system of systems 
architecture for the FCS equipped unit of action and design the 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance architecture necessary to provide a 
robust near real-time communications capability. The LSI will develop a 
material solution to satisfy the FCS organizational concept that is 
both strategically responsive while providing a more versatile, agile, 
lethal, and survivable combat system.

    9. Senators Lieberman and Santorum. Secretary Brownlee, will the 
LSI be precluded from developing and bidding on equipment for the FCS 
or Objective Force? Please provide a summary of the Statement of Work.
    Secretary Brownlee. There is no restriction precluding the LSI from 
submitting an offer for Objective Force development or production. 
Boeing's division of Advanced Space and Communications managing the 
DARPA/Army Lead Systems Integration agreement is ``firewalled'' from 
the rest of the corporation so they can compete in the process set up 
by the LSI. The LSI will document and maintain a best value competitive 
process to select major systems and subsystems. The government reserves 
the right to participate in all program decisions, to include make/buy 
and competitive selection decisions. The government reserves the right 
to disapprove any action taken under that process.
    The scope of the agreement between the DARPA/Army team is for 
execution of the concept and technology development phase of the FCS 
program. The LSI, in concert with the government, commits to provide 
the demonstrations, documentation, and tests required for a successful 
Milestone B decision accomplished in accordance with the statement of 
objectives and agreement deliverable schedule to provide a smooth 
transition into the SDD phase.
    Subject to negotiation, the LSI agreement may be modified to 
include the SDD of the FCS program.

                    the interim brigade combat team
    10. Senators Lieberman and Santorum. General Keane, the Interim 
Brigade Combat Team (IBCT), equipped with a family of Interim Armored 
Vehicles (IAV), is the centerpiece of the Interim Force. The Army has 
fielded a portion of one IBCT using surrogate vehicles at Fort Lewis, 
Washington, and is developing the tactics, techniques, and procedures 
for operational employment of the IBCTs using the Fort Lewis IBCT. The 
Army's fiscal year 2003 budget request includes $812 million for the 
procurement of 332 IAVs for the third IBCT. The first IAVs should be 
fielded in June 2002, the last in fiscal year 2008. The Quadrennial 
Defense Review (QDR) recommended that an IBCT be stationed in Europe. 
The National Defense Authorization Act for fiscal year 2002 included a 
provision granting the Secretary of Defense the authority to waive a 
side-by-side comparison of the IAV and the M113A3, the medium-weight 
armored infantry carrier currently in the Army inventory, dependent on 
several certifications, including an IBCT operational evaluation 
(including deployment to the evaluation site and execution of combat 
missions across the full spectrum of potential threats and operational 
scenarios), prior to deployment and prior to obligating funds for any 
more than three brigades.
    The Secretary of Defense testified that part of the $48 billion 
increase in the defense request was for ``realistic costing'' of 
programs to meet the cost position of the DOD's Cost and Analysis 
Improvement Group. Has the Army fully funded the IBCTs? How many IBCTs 
has the Army funded?
    General Keane. The Army has fully funded the procurement costs for 
the six IBCTs. 

    11. Senators Lieberman and Santorum. General Keane, how do you 
intend to resource the $276 million shortfall in IBCT military 
construction and the $283 million shortfall in IBCT training identified 
in the UFR list the Army provided Congress this year?
    General Keane. We will utilize existing facilities and equipment on 
which. we can train and convert IBCTs as we work toward the objective 
requirements. In lieu of not receiving funds for our shortfalls, we 
will look at opportunities to leverage any cost offsets and allocate 
revealed resources toward our most critical requirements while 
retaining a balanced budget.

    12. Senator Lieberman and Santorum. Secretary Brownlee, the 
National Defense Authorization Act for Fiscal Year 2002 included a 
provision granting the Secretary of Defense the authority to waive a 
side-by-side comparison of the IAV and the M113A3, the medium-weight 
armored infantry carrier currently in the Army inventory, dependent on 
several certifications, including an IBCT operational evaluation 
(including deployment to the evaluation site and execution of combat 
missions across the full spectrum of potential threats and operational 
scenarios), prior to deployment and prior to obligating funds for any 
more than three brigades. Can you describe the actions you have taken 
in preparation for this operational evaluation and when do you expect 
to conduct this operational evaluation?
    Secretary Brownlee. We are currently developing our strategy for 
the operational evaluation to assess the Stryker's operational 
effectiveness, suitability, and survivability. This strategy will 
combine live testing, virtual simulation, constructive modeling, and 
other data sources as required and will compare a Stryker-equipped unit 
with a light infantry unit. Testing will be conducted in fiscal year 
2003.

    13. Senators Lieberman and Santorum. Secretary Brownlee, could you 
describe, in general terms, how you plan the testing of the full 
spectrum capabilities of the IBCT within the context of the operational 
evaluation?
    Secretary Brownlee. The Army plans to evaluate the capabilities of 
the IBCT through the assessment of operational events, modeling and 
simulation, and other events required for the acquisition of the 
Stryker Interim Armored Vehicles, and the fielding, training, and 
initial operational capabilities of the IBCTs.

    14. Senators Lieberman and Santorum. Secretary Brownlee, is the 
IBCT a separate brigade or is it part of a division? If it fights as 
part of a division, will the division headquarters have adequate 
digital communications resources to support IBCT operations?
    Secretary Brownlee. In July 2001, the Army announced the 
designation of the six IBCTs. This was based upon operational and 
strategic considerations. The units designated were a combination of 
divisional brigades, cavalry regiment, and separate brigade. The IBCT 
can be task organized to operate as either a divisional brigade or as a 
separate brigade. The Army is conducting analysis to determine the 
appropriate command and control relationships for these five interim 
brigades and the one interim cavalry regiment. During this analysis, 
due consideration will be given to ensure that appropriate 
digitization, logistical support, and command and control 
infrastructure are in place to provide higher control and support to 
each interim brigade.

    15. Senators Lieberman and Santorum. Secretary Brownlee, if it is a 
separate brigade, how long can the IBCT sustain operations? Is the lBCT 
fully equipped to perform as a separate brigade?
    Secretary Brownlee. The support structure of the IBCT is purposely 
austere to enhance deployability and force mobility. The IBCT is 
designed to be capable of sustaining itself for 72 hours under combat 
conditions. The IBCT is a divisional brigade that is designed to fill a 
capability gap between the Army's heavy and light forces. It is 
optimized for employment as an early entry combat force as well as for 
a wide range of small-scale contingencies. However, it was not designed 
to operate as a separate brigade and requires augmentation for 
sustainment. In a major combat operation, the IBCT will participate as 
a subordinate maneuver component within the division or corps.

                          legacy force systems
    16. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, in the Army's plan, the Legacy Force will continue to provide 
overmatch and near-term warfighting capabilities out to the 2030 time 
frame. The Army estimates that 75 percent of its major combat platforms 
exceed their service life. However, because of affordability concerns, 
the Army has taken risk in the Legacy Force by limiting the focused 
recapitalization program only to those systems supporting the three and 
one-third divisions of the counterattack corps. In the fiscal year 2002 
budget, the Army planned to recapitalize and selectively modernize 21 
systems. In the fiscal year 2003 budget, the Army reduced that number 
to 17. The Army's UFR list includes a $2.4 billion shortfall for force 
modernization. Despite an almost $10 billion increase, the Army was 
still required to terminate 11 programs in fiscal year 2003 and 7 
programs in Future Years Defense Program. Most of the program 
cancellations and restructuring is related to the ground component of 
the Legacy Force.
    Why did the Army find it necessary to reduce the number of Legacy 
systems for recapitalization from 21 in fiscal year 2002 to 17 in 
fiscal year 2003, in light of the $3 billion increase to Army 
procurement accounts?
    Secretary Brownlee and General Keane. The four systems that were 
removed from the recapitalization list are the M915 Line Haul Tractor, 
Small Unit Support Vehicle (SUSV), D7 Dozer, and D7 Scraper.
    All four systems were low priorities on our recapitalization list. 
The M915 Tractor was removed from the recapitalization program because 
it was more cost effective to purchase new tractors than to 
recapitalize old vehicles. The Army decided to remove the SUSV from the 
recapitalization list because it was a low-density fleet with no 
immediate readiness issues or concerns. Additionally, funding was never 
applied to establishing a recapitalization program for this fleet. The 
D7 Dozer and Scraper were removed from the recapitalization list 
because they were being adequately addressed in the construction 
equipment service life extension program.

                     force modernization shortfall
    17. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, the Army's unfunded priority list includes a $2.4 billion 
shortfall for ``Force Modernization.'' Can you please describe what 
constitutes this shortfall and the impact on the recapitalization 
program if this funding were provided?
    Secretary Brownlee and General Keane. Critical force modernization 
programs that appear on the Amy's unfunded requirements list include 
MH-47 helicopters, soldier modernization, tactical radios, and others. 
However, these requirements do not impact the Army's recapitalization 
program or funding for recapitalization systems. All 17 of the Army's 
recapitalization systems are funded.

             modernization beyond the counter attack corps
    18. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, while the Abrams and Bradleys in the Counterattack Corps will be 
modernized, those that reside in Army Prepositioned Sets (APS) will not 
be. How does the Army intend to mitigate this risk?
    Secretary Brownlee and General Keane. The Army is committed to 
making transformation as transparent as possible to the warfighting 
commanders in chief (CINC). All facets of transformation are first 
assessed against their impact on the Army's ability to support the 
warfighting CINCs. The Army closely manages its prepositioned equipment 
sets to ensure the timely arrival of an appropriate mix of forces to 
deter an adversary or support the rapid halt of an enemy advance.
    In addition to the decisive counteroffensive capability the 
modernized III Armored Corps will have, the balance of the legacy heavy 
forces will be selectively upgraded and will be available as early 
deployers to ensure enemy forces do not achieve their initial 
objectives. The upgrades planned for armored forces other than the 
Counterattack Corps do not prevent them from falling into our 
prepositioned sets. These selected upgrades will ensure the early 
deploying force maintains combat overmatch in the regions where the 
prepositioned equipment will likely be employed by taking the key 
combat systems to a ``zero hour/zero mile'' status, not changing the 
equipment types.
    Forward deployed divisions and selected continental United States-
based units will maintain compatibility with prepositioned equipment 
until they are transformed to the Objective Force. With the arrival of 
more strategically responsive Objective Force units, the Army will 
modify its prepositioned equipment sets based on emerging CINC 
requirements.

    19. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, will less capable forces which draw the APS equipment be first 
to the fight before the modernized forces of the Counterattack Corps 
which must deploy by sea?
    Secretary Brownlee and General Keane. The fully modernized 
Counterattack Corps will deploy by sea with their equipment to provide 
a decisive counteroffensive capability well into the Objective Force 
timeframe. The equipment in our prepositioned sets provides a combat 
overmatch capability for the foreseeable future and into the beginning 
of the Objective Force timeframe. The early deploying heavy forces must 
ensure enemy forces do not achieve their initial objectives. In 
addition to the decisive counteroffensive capability, the fully 
modernized Counterattack Corps will have the balance of the legacy 
heavy forces will also be selectively upgraded and will be available as 
early deployers.

    20. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, in your joint statement you assert that ``the leaders and 
soldiers of today's Army will advance the tactics, techniques, and 
procedures for network centric warfare using enhanced command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) systems on modified Legacy programs.'' Do you 
intend to digitize all platforms in the Legacy Force or will this 
modernization initiative be limited to the Counterattack Corps?
    Secretary Brownlee and General Keane. The fiscal year 2003 Future 
Years Defense Plan continues the Army's digitization program with 
fieldings to the Interim Brigade Combat Teams (IBCT) and the 
Counterattack Corps. While sustainment and improvement of legacy 
systems will focus on the Counterattack Corps, information superiority 
is a cornerstone of Army transformation across all of the Legacy Force.

    21. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, is the digitization program fully funded to complete this 
initiative?
    Secretary Brownlee and General Keane. For the period covered by the 
President's budget, the digitization initiative is fully funded and 
provides for fieldings within the IBCTs as well as the Counterattack 
Corps. Beyond this period, funding decisions have yet to be made in the 
normal budget process.

    22. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, if this applies only to the Counterattack Corps, how will units 
not included in the digitization plan be incorporated into operations?
    Secretary Brownlee and General Keane. While current funding only 
supports platform level digitization in the networks for the 
Counterattack Corps and IBCTs, C\4\ISR modernization continues across 
all units. Information superiority ensures the translation of raw 
information into superior knowledge through the integration of a 
network-based C\4\ISR and target acquisition system-of-systems, so we 
will bring digitization down to battalion level in all of our tactical 
units. When operations require a mix of these forces, we will use a 
variety of means to ensure interoperability. These include using semi-
automated systems-to-systems information exchanges, backwards 
compatible messaging built into our most modern systems, liaison 
officer teams, and other manual techniques and procedures to include 
voice information to non-digitized platforms. This capability to work 
across platforms will help maintain an ability to work with non-
digitized platforms and will also help maintain an ability to work with 
non-digitized allies.

                           black hawk buy-out
    23. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, we understand the contractor has proposed a plan to complete the 
procurement of the remaining 102 Black Hawk helicopters requirement by 
fiscal year 2006 vice the Army's schedule of fiscal year 2011. While 
requiring an additional $428 million expenditure between fiscal year 
2003-2005, that action would save the Army $126 million. Why would it 
not make sense to fund this buy-out, if necessary, by shifting money 
and delaying the planned recapitalization program for existing Black 
Hawks to do so?
    Secretary Brownlee and General Keane. Delaying the UH-60M 
recapitalization/upgrade (R/U), or the UH-60A-A recapitalization/
rebuild (R/R) programs to accomplish the early buy-out would have a 
major impact on the Army's efforts to transform the utility fleet to a 
digitized force and retard our efforts to reverse the aging trend of 
the UH-60 fleet, which is currently at 15.2 years.
    Moving 3 years of funds currently allocated to the R/U program--
which upgrades UH-60As and Ls to UH-60Ms--to accomplish the buy-out 
would not equal a 3-year delay. The loss of momentum and the 
institutional engineering knowledge incurred by shutting down the RDT&E 
effort would likely add 2 to 3 years of effort to recover the lost 
momentum, in addition to the 3-year slip. This could move the first 
fielding out as far as 2012, rather than 2006 as currently projected.
    Also, the UH-60 recapitalization programs include funds needed to 
modify the overall UH-60 fleet and the Army's medical evacuation 
(MEDEVAC) aircraft. To execute the buy-out and continue scheduled fleet 
modifications would force us to look to other Army programs to cover 
the difference between the recapitalization dollars and the early buy-
out requirements. We believe the amount required to execute the buy-out 
is $482 million--by year, the contractor requested $150 million in 
fiscal year 2003, $152 million in fiscal year 2004, and $180 million in 
fiscal year 2005.
    In fiscal year 2003, the UH-60 R/U program has a total of $141 
million. $99 million of that is for UH-60M RDTE; the other $42 million 
is going toward upgraded MEDEVAC kits, crashworthy external fuel tanks, 
and other modifications required by the fleet. In fiscal year 2004 the 
R/U program has a total of $234 million. Of that, $99 million is 
earmarked for the UH-60M production line. $54 million is allocated to 
UH-60M RDTE, $64 million to upgraded MEDEVAC kits, crashworthy external 
fuel tanks, and other modifications required by the fleet. $17 million 
is going toward upgrades of training aids, devices, and simulation 
systems.
    In fiscal year 2005, UH-60 R/U is budgeted for $263 million--$161 
million for the UH-60M production line, $23 million for UH-60M RDTE, 
and the remainder is for upgraded MEDEVAC kits, crashworthy external 
fuel tanks, and other modifications required by the fleet.
    The UH-60 recapitalization/rebuild program at Corpus Christi Army 
Depot has been designed to extend the service life of the UH-60A fleet 
until those aircraft can be inducted in the UH-60M upgrade program. The 
Army currently has 364 aircraft that are at or beyond their 20th year 
of service. Reprogramming the dollars allocated to the service life 
extension of these aircraft would not only require us to pay the 
increasing operations and sustainment costs associated with old 
aircraft, but place soldiers in aircraft which have exceeded their 
useful service life.

              the battlefield combat identification system
    24. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, in the fiscal year 2003 budget request, the Army has canceled 
the Battlefield Combat Identification System initiated as a result of 
the ``friendly fire'' fratricides of the Gulf War (now over 10 years 
ago). Why was this program terminated and how will the Army address 
this critical issue until the FCS is fielded?
    Secretary Brownlee and General Keane. The Battlefield Combat 
Identification System (BCIS) program was originally funded for one 
division in the 2003-2007 Program Objective Memorandum. As structured, 
the program was considered unaffordable, and funding was redirected to 
higher priority programs. BCIS was designed as part of a dual approach 
for combat identification, which includes through-the-sight target 
identification and situational awareness.
    In lieu of BCIS, the Army will continue to field the Counterattack 
Corps with combat identification thermal panels, second generation 
forward looking infrared, and Force XXI Battle Command Brigade and 
Below. The BCIS millimeter wave technology will be evaluated for 
inclusion into the Future Combat Systems and Objective Force. As the 
technology matures and, if proven affordable, it will be considered for 
retrofit as a combat identification capability in Interim and Legacy 
Forces. This program strategy supports Objective Force priorities, 
while currently providing limited combat identification capability for 
the Legacy Force.

                         counterm1ne capability
    25. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, the January 21, 2002 edition of Inside the Army quoted an 
internal Army review that stated: ``The service faces countermine 
capability `shortfalls' in four key areas: see and detect from stand-
off ranges; mine neutralization; force protection; and demining and 
clearing.'' What capabilities do our soldiers have currently for 
standoff mine detection from a vehicle or aircraft?
    Secretary Brownlee and General Keane. U.S. soldiers do not 
presently have a stand-off detection capability from a vehicle or 
aircraft. The Army is assessing a stand-off detection technology from a 
rotary wing unmanned aerial vehicle (UAV) known as a camcopter. This is 
expected to be a limited capability for detection of changes in routes 
that would indicate the presence of mining activity. Development of a 
minefield stand-off detection capability from a UAV is slated to be 
initiated in fiscal year 2003. Stand-off detection from a vehicle in a 
pure sense is not achievable today. What is planned in the near term is 
the use of an unmanned ground search platform to remove the soldier 
from the vehicle during search operations. This is the Ground Stand-off 
Mine Detection System (GSTAMIDS) program under development today.

    26. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, what is the fielding status of the Army's current next-
generation mine detection systems, the Ground Stand-off Mine Detection 
System and the Handheld Stand-off Mine Detection System?
    Secretary Brownlee and General Keane. GSTAMIDS is currently in 
development with a planned transition to production for the Block 0 
version to occur in February 2003. The Handheld Stand-off Mine 
Detection System (HSTAMIDS) is currently in development with a planned 
transition to production at the end of fiscal year 2003. As a result of 
Operation Enduring Freedom, the Army initiated an acceleration of the 
program to provide 200 production units of an interim variant to be 
delivered by the end of calendar year 2002.

    27. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, what measures has the Army taken to mitigate risk until these 
systems are fielded?
    Secretary Brownlee and General Keane. The Army has committed $29 
million for urgent operational requirements in support of Operation 
Enduring Freedom to mitigate risk until these systems are fielded. The 
forces have deployed mine sniffing dog teams on the ground in 
Afghanistan. D7 bulldozers have been equipped with armor protection for 
use in clearance of some areas with mines. Tele-operated mini-flails 
have been deployed to clear areas of antipersonnel mines. We have 
procured state-of-the-art metal detectors from Australia that are more 
effective in the highly mineralized soil conditions found in some parts 
of Afghanistan. This is an interim measure until the HSTAMIDS mine 
detectors are available.

    28. Senators Lieberman and Santorum. Secretary Brownlee and General 
Keane, what are the countermine capabilities for the IBCT?
    Secretary Brownlee and General Keane. In addition to the HSTAMIDS 
and GSTAMIDS systems, countermine capabilities for the IBCT consist of 
a suite of equipment to be deployed with the Engineer Squad Vehicle 
Variant of the Interim Armored Vehicle. Each engineer vehicle will be 
equipped with lightweight rollers or lightweight full width blades. As 
part of the ensemble, each vehicle will also be equipped with a 
magnetic signature duplicator to deal with magnetic influence fuzed 
mines. Six of the vehicles in the nine-vehicle engineer company will 
also tow a Mine Clearing Line Charge (MICLIC). The MICLICs will be 
replaced starting in the fiscal year 2005 timeframe with the explosive 
standoff mine clearance system, which is also known as Mongoose. 
Mongoose will provide a more robust capability across the full spectrum 
of the threat.

                           special operations
    29. Senators Lieberman and Santorum. General Keane, Army 
participation in Operation Enduring Freedom early on consisted of a 
Delta Force and Ranger raid in the vicinity of Kandahar and the use of 
Special Operations Forces in a traditional liaison and support role to 
indigenous forces. New, of course, was the employment of high-tech 
communications and targeting capabilities and improved sensor-to-
shooter linkages which allowed these forces to be even more effective. 
Lately, in Operation Anaconda, conventional Army light infantry forces 
from the 10th Mountain and 101st Air Assault Divisions have been 
employed. One of the more striking aspects of that fight is the use of 
the special operations version of the Chinook cargo helicopter (rather 
than Black Hawks) to effectively conduct combat air assaults, and the 
absence of field artillery indirect fire support to supplement fixed 
wing, helicopter, and mortar fire support. Are there considerations for 
expanding Army Special Operations Forces and Ranger battalions?
    General Keane. The Army uses the biennial Total Army Analysis (TAA) 
process to evaluate its force structure in light of the current or 
changing strategy. During the last TAA, the Army recognized some key 
shortages resulting from the move away from the two major theater war 
strategy to a more inclusive strategy. Nearly one-quarter of the 
proposed active force structure changes were increases to the special 
operations forces. We are increasing their training base, adding 
additional capabilities to the Ranger battalions and special forces 
groups, building two new civil affairs and psychological operations 
companies, and doubling the special forces logistical support 
structures.

            lessons learned from operation enduring freedom
    30. Senators Lieberman and Santorum. General Keane, do lessons 
learned from Operation Anaconda, or the overall Operation Enduring 
Freedom, indicate that the Army should move more aggressively toward a 
future transport rotorcraft?
    General Keane. The Army strongly supports development and fielding 
of a vertical or very short take-off and landing aircraft that can 
deliver payloads in the 15 to 20 ton range. In Operation Enduring 
Freedom, we entered an underdeveloped theater. Afghanistan lacks 
adequate infrastructure on which to base ground lines of communication. 
That presented a challenge to get into the areas we needed to put 
significant forces and to keep those forces resupplied. Most of our 
insertion efforts were by air. That meant using the limited airfields.
    The available intra-theater airlift we have today requires a 2,500-
foot strip. We were not able to get the desired throughput into Bagram 
or Kandahar because we had to repair the runways, and that takes time 
as well as materials and equipment, which we could not get there 
rapidly. In short, the hardware we have today limits our options and 
ties us to inefficiencies. Army rotary wing aircraft are great but have 
limitations, particularly in terms of the lift capacity and ``legs,'' 
or distance we can fly. A single material solution could perhaps 
address both the Air Force mission (intra-theater airlift) and the Army 
mission (tactical movement and resupply). The Army would support an 
aggressive joint program to develop such a solution.

    31. Senators Lieberman and Santorum. General Keane, do lessons 
learned from the Afghanistan operations lead you to new insights into 
low density/high demand items?
    General Keane. Current operations in the war on terrorism have shed 
some insight into our force structure, particularly high demand/low 
density (HD/LD) forces. In exercising force management, the Army must 
pay close attention to our HD/LD forces, such as special operations 
forces, chemical/biological detection, and Patriot air defense forces 
in order to balance current requirements with deliberate planning.
    A key insight from Operation Enduring Freedom for the Army is the 
increasing requirement for force versatility as we prepare for 
tomorrow's challenges. We believe the current operations reinforce that 
we are on the right course with Army transformation. As the OPTEMPO of 
our Active component forces increases, the link to, and management of, 
our Reserve component forces becomes critical to successful force 
management.
    The current operations clearly present a challenge, especially in 
the allocation and usage of HD/LD forces, requiring the Army to very 
carefully manage all of its forces. The force in existence today was 
built over the last 10 years to fight under a different set of 
assumptions than we have today. There are some mismatches in the 
number, type, and component mix of forces that we need to sustain the 
global war on terrorism, and the Army is addressing these issues to the 
best of our ability. Some improvements to our HD/LD forces are already 
occurring by selective increases to special operations aviation, civil 
affairs, biological detection, and technical escort units, with more 
planned over the next several years. In short, the Army is able to meet 
its requirements by carefully managing and leveraging all of our forces 
in both the active and Reserve components. We will continue to balance 
near-term HD/LD challenges with the broader demands of the new 
strategy.
                                 ______
                                 
               Questions Submitted by Senator John Warner
             family of medium tactical vehicles dump trucks
    32. Senator Warner. Secretary Brownlee and General Keane, recently 
it was brought to my attention that engineer units in Afghanistan have 
complained about some of the engineer equipment that is being used in 
the Afghanistan operations. The vehicles that were identified as poor 
performers were: the Family of Medium Tactical Vehicles (FMTV) 5-ton 
dump trucks, the Light Medium Tactical Vehicle 2\1/2\ ton cargo 
vehicle, the Deployable Universal Combat Earthmover (DUECE), and the 
Tractor Dozer D5. What is the Army doing to address these complaints?
    Secretary Brownlee and General Keane. The challenge on any 
deployment is to balance the size of equipment to best match the 
limited transportation assets. The comments were not intended to imply 
that the equipment did not perform as designed, but rather the smaller, 
more transportable DEUCE and D5 were not the optimal pieces of 
equipment for the missions, conditions, and environment given to the 
engineer units.
    When performing earthmoving and excavation missions in the most 
extreme soil conditions, vehicle horsepower and weight become critical 
to earthmoving operations--bigger is better. The comments need to be 
taken in the context of comparing D7 dozers to the smaller DEUCE and D5 
that are not as capable due to reduced size and horsepower.

    33. Senator Warner. Secretary Brownlee and General Keane, do you 
agree that there are problems with this equipment and if so, what are 
the specific problems, and what is the Army's plan to address these 
shortcomings?
    Secretary Brownlee and General Keane. The Army recognizes problems 
with the older, A0 model FMTV dump trucks' ruggedness and truck bed and 
payload capacity. The Army implemented a design upgrade in A1 model 
production to include a thicker impact resistant bed, heavier duty rear 
springs, adjusted hydraulic pressure for heavier loads, and changed the 
dual swing tailgates from aluminum to steel for impact strength. The 
phased upgrade should mitigate the problems that we experienced.
    The 17 FMTV dump trucks of the 92nd Engineer Unit in Afghanistan 
are :non-upgraded A0 model trucks that were deployed before the 
upgrades. The concerns were about load spillage on the move, capacity, 
and ruggedness. The Army has proposed two approaches to the unit to 
improve their capability in Afghanistan: ship 12 new and upgraded A0 
models from the United States; or ship 17 sets of upgrade kits with 
support equipment and contractor personnel to Afghanistan to perform 
the installation. We are also investigating improvements in operator 
training and procedure. A decision on implementation of the options is 
pending a decision by the theater and unit commanders. Please note that 
the readiness rating of the FMTVs continues to be over the 96th 
percentile, and the Army has confidence in the system as a whole.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                                 apache
    34. Senator McCain. Secretary Brownlee and General Keane, the role 
of the AH-64 Apache attack helicopter in the United States Military's 
ability to project power was recently validated in Sha-e-Kot, 
Afghanistan. The Apache performed remarkable feats in the close air 
support arena for U.S. ground troops under fire from al Qaeda 
positions. The skill and fearlessness exhibited by Apache aircrew were 
directly responsible for saving countless American lives.
    While the role of the Apache is not in question, I am concerned 
with the damage those first 7 aircraft received during the battle of 
Sha-e-Kot, especially given the concern by so many members of Congress 
to the circumstances surrounding the Apache's deployment to Yugoslavia. 
I am interested to know what you feel can be done to make the Apache 
even more survivable. What are your plans to make the AH-64 Apache a 
key weapon system in the Army's Objective Force.
    Secretary Brownlee and General Keane. The close combat role of Army 
aviation will, at times, require our helicopters to engage the enemy at 
ranges much closer than our systems are optimized. The battle of Sha-e-
Kot is an excellent example. The Apaches in Afghanistan are AH-64A 
models. The Apache's current survivability design of redundant systems, 
30-minute ``dry run'' transmission, blast shields, and crew armor 
plating provided the crews in Afghanistan the capability to complete 
their mission, return unharmed, and get the airframes into the hands of 
our maintenance personnel.
    The AH-64 Apache is a ``Legacy to Objective Force'' airframe. The 
RAH-66 Comanche will start displacing the Apache by fiscal year 2015. 
The Army's plan to improve the Apache program is two-fold. First, we 
are currently fielding the AH-64D Longbow Apache, which adds the 
additional capability of the fire control radar and radar frequency 
interferometer, increasing stand-off capability against armor and air 
defense threats, as well as numerous system improvements. As a part of 
the Army recapitalization initiative, the Apache recapitalization 
program increases reliability, reduces fleet half-life and procures the 
second-generation forward-looking infrared radar for the fleet. While 
the AH-64A Apache continues to be the world's most lethal attack 
helicopter, the Longbow Apache improvements increased the effectiveness 
and survivability of the Apache as we transform to Objective Force.

    35. Senator McCain. Secretary Brownlee and General Keane, what is 
the level of effort with respect to the full complement of threat 
countermeasure upgrades, such as infrared, radar, and laser detection, 
to make this aircraft fully transformational.
    Secretary Brownlee and General Keane. In the fiscal year 2003-
fiscal year 2007 Program Objective Memorandum, the Army zeroed out the 
Army Procurement Appropriations funding for the infrared and radio 
frequency countermeasures programs. The zeroing of these programs was 
due largely to high cost and affordability issues. Additionally, the 
Army did not fund the laser warning program. Research, development, 
test, and evaluation funding for infrared and radio frequency was left 
in place to develop cost-reducing mechanisms while further refining the 
systems.
    The Army recognizes the proliferation of surface-to-air missiles 
and recently completed an aircraft survivability study that developed 
cost-affordable options for defeating the threat. Although pre-
decisional, the Army is planning to counter infrared missile threats by 
upgrading the Apache Longbow helicopter with a common missile warming 
system, an advanced infrared countermeasures munition, and an advanced 
threat infrared countermeasure. Radio frequency countermeasures will 
remain as currently configured while the Army continues to review 
solution sets in this spectrum for the Apache helicopter. In addition, 
final fielding of an advanced laser warning system could be 
accomplished by the end of fiscal year 2006. The net effect of these 
actions will ensure that the modernized Apache fleet has a viable 
threat countermeasure capability.

    [Whereupon, at 4:34 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
